<html>
<title> - PERMANENT EXTENSION OF THE FOREST SERVICE RECREATION FEE DEMONSTRATION PROGRAM</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
PERMANENT EXTENSION OF THE FOREST SERVICE RECREATION FEE DEMONSTRATION 
                                PROGRAM

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                           September 25, 2001
                               __________

                           Serial No. 107-62
                               __________

           Printed for the use of the Committee on Resources




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
75-401                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                









                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 25, 2001...............................     1

Statement of Members:
    DeFazio, Hon. Peter A., a Representative in Congress from the 
      State of Oregon, prepared statement of.....................    39
    Gallegly, Hon. Elton, a Representative in Congress from the 
      State of California, prepared statement of.................    39
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado, prepared statement of...................     1
        Letter to Dale Bosworth, Chief, USDA Forest Service, 
          submitted for the record...............................     3
    Otter, Hon. C.L. "Butch", a Representative in Congress from 
      the State of Idaho, prepared statement of..................    40

Statement of Witnesses:
    Bschor, Dennis, Acting Associate Deputy Chief, National 
      Forest System, Forest Service, U.S. Department of 
      Agriculture................................................     4
        Prepared statement of....................................     5
    Hoschek, Doug, Co-Founder, Public Access Coalition...........    27
        Prepared statement of....................................    28
    Robertson, Jason, Access Director, American Whitewater.......    31
        Prepared statement of....................................    32
    Viehman, John, Publisher, BACKPACKER Magazine................    23
        Prepared statement of....................................    24
    Warren, Bob, Chairman, National Alliance of Gateway 
      Communities................................................    35
        Prepared statement of....................................    36

Additional materials supplied:
    Smith, Vera, Conservation Director, The Colorado Mountain 
      Club, Letter submitted for the record......................    12












  HEARING ON PERMANENT EXTENSION OF THE FOREST SERVICE RECREATION FEE 
                         DEMONSTRATION PROGRAM

                              ----------                              


                      Tuesday, September 25, 2001

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommitee met, pursuant to notice, at 3 p.m., in Room 
1334, Longworth House Office Building, Hon. John E. Peterson 
presiding.
    Mr. Peterson. [Presiding.]
    The hour being 3 o'clock, the Subcommittee on Forests and 
Forest Health will come to order.
    The Subcommitee is meeting today to hear testimony on the 
permanent extension of the Forest Service Recreation Fee 
Demonstration Program. We are going to dispense with all 
opening statements, which may be submitted for the record.
    [The prepared statement of Mr. McInnis follows:]

  Statement of the Honorable Scott McInnis, Chairman, Subcommittee on 
                       Forests and Forest Health

    Today the House Subcommittee and Forests and Forest Health will 
conduct an oversight hearing exploring the Forest Service Recreational 
Fee Demonstration Program, or Rec Fee Demo as it is generally known. 
Since the Program's inception in 1996, the Forest Service Rec Fee Demo 
has been the subject of both praise and vilification; it has been 
roundly commended by some and loudly condemned by others. But whatever 
your position on the Demo Program, there is a growing feeling among 
those on all sides of the issue that the time has come for Congress to 
make a definitive, comprehensive and long-term decision about the 
future of this Program.
    Before we arrive at the point of making a lasting judgement, 
Congress needs to conduct a top-to-bottom review of the Forest Service 
Rec Fee Demo. That process begins here today. What are the Program's 
strengths? Where has the Rec Fee Demo fallen short? What statutory 
guidelines can Congress give the Forest Service to reinforce the 
desirable elements of the Demo, while heading-off any unintended 
consequences or unwanted up-shots. That is the purpose of the hearing 
today to weigh the relative merits of the Program against its 
inadequacies and begin the difficult process of determining if, how and 
under what conditions the Forest Service Rec Fee Demo should be 
permanently authorized by Congress.
    Before we hear from my Colleague Mr. Inslee and our distinguished 
panel of witnesses, I want to make a final observation. The most 
frequently cited criticism of the Rec Fee Demo is that it is tantamount 
to double-taxation. Because taxpayers already underwrite federal land 
management activities with their tax dollars, the argument goes, it is 
unfair to asks users to incur an additional cost associated with 
recreation related management. While this argument seems conclusive at 
first glance, the unfortunate and unmistakable reality is that 
Congressional Appropriations simply have not met the basic needs of the 
Forest Service, particularly when it comes to addressing the 
recreational stresses and strains currently on our nation's forests. 
Presently, the Forest Service has a deferred maintenance backlog in 
excess of $800 million. And while it's easy to say that Congress should 
step up to the plate and appropriate moneys to cover these costs, a 
statement I personally agree with, we live in a world governed by 
reality and the reality is that these dollars have not materialized, 
and there are no signs that they will materialize in the foreseeable 
future. So what do we do in the meantime? We rely on tools like the Rec 
Fee Demo that, while maybe not needed in a perfect world, provide a 
fair and equitable stream of financial resources to manage our Forests' 
recreational resources.
    It is with this that I look forward to beginning this important 
dialogue today and hearing the testimony of my Colleagues and our 
witnesses.
                                 ______
                                 
    [A letter submitted for the record by Mr. McInnis follows:]
    [GRAPHIC] [TIFF OMITTED] T5401.001
    
    Mr. Peterson. I would like to introduce our witness on 
Panel One. Denny Bschor is Acting Associate Deputy Chief, 
National Forest System, U.S. Forest Service.
    I want to remind the witnesses that under our Committee 
rules, you must limit your oral statement to 5 minutes, but 
your entire statement will appear in the record.
    Mr. Bschor, please take the chair and position the mike so 
we can hear you, and proceed. Welcome.

  STATEMENT OF DENNIS BSCHOR, ACTING ASSOCIATE DEPUTY CHIEF, 
          NATIONAL FOREST SYSTEM, USDA FOREST SERVICE

    Mr. Bschor. Thank you, Mr. Chairman. It is a pleasure to be 
here today to testify on the future of the Recreation Fee 
Demonstration Program which was begun in 1996.
    I would just like to summarize a few statements out of my 
written statement. I would begin by saying that expiration of 
the current program, if allowed to expire, would currently 
expire on September 30, 2002. I would remind the Committee that 
if this happens, as of October 1, the Forest Service would have 
to begin the process of shutting down some of the fee programs 
that we have, especially the ones that include annual permits.
    I also want to mention that through fiscal year 2000, we 
collected over $74 million above appropriations that had been 
used for the recreation program.
    I want to mention a few things about what is getting done. 
We have an extensive list of items in the testimony, and I will 
not go through each one of them--they are available for your 
perusal--but I do want to let you know that that is just a 
fraction of what has been accomplished, although I think you 
will find it considerable.
    We have been able to provide quality recreation experiences 
and services. We have been able to reduce maintenance backlogs. 
We have been able to enhance facilities, enhance safety, 
enhance security, and enhance the conservation of natural 
resources by the use of these funds.
    When we started the fee demo in the Forest Service, we took 
the demonstration part of fee demo very seriously. We tried to 
design a program that is not top-down, that is not one-size-
fits-all, but a program that encourages experimentation and 
innovation. In doing this, we learned a lot. We also created 
some concern among the public about inconsistencies and that 
sort of thing.
    For each of our projects, we require a business plan which 
includes a business plan per se, a communications plan, and a 
civil rights impact analysis. Each of these are reviewed by a 
regional board of directors which consists of a variety of 
folks, from business management types to actual recreation 
managers.
    Changes that we have made during this time I think are 
important to mention. I will just mention a few. We have been 
able to elicit public comments through public comment cards. We 
have done surveys of folks who are using the system and folks 
who are not. We have a lot of research information, and 
hopefully, we can use that to design any future program.
    We consolidated fees when we heard that there were too many 
different types of fees. We have provided better information on 
expenditures and accomplishments with these fees to 
stakeholders. We have invited comments on how to utilize future 
revenues and how they should be spent. Where we have done a 
good job of that, we have received good compliance and support. 
We have coordinated fees with other State and Federal agencies 
and have some pretty good examples of that.
    We have also learned to conduct market studies prior to fee 
implementation to learn more about the visitor preferences and 
their needs.
    I just want to mention a couple of items that are in my 
testimony that relate to the future of a fee program that I 
think are important to outline here. Whatever the program, it 
needs to be nationally consistent but locally driven. We have 
some suggestions for policy objectives, and the first one would 
be to provide equity and community needs; that means that 
whatever program is developed should include fairness of fees 
and the needs of potential users, including low-income and 
minority communities.
    Future programs should also include efficiency--that is, 
efficiency in delivery of the program and the fee system and 
also in the use of public services. They should also be 
consistent and coordinated, and that means it should be 
convenient to pay the fees, and the fees should not impede use.
    Future programs should also include revenue production, 
which means sufficient revenue to provide for the unmet needs 
within the recreation program.
    And last but probably not least, and one of the major 
points, is revenue distribution. We have found that as you 
develop the revenue at a site, if it is spent at that site, it 
seems to be accepted much better.
    I also want to say that the fee demo program, we have found 
in the Forest Service, is not just about collecting fees. It is 
another tool for management that helps us provide the goods and 
services that we would not normally be able to through 
appropriations, but it also does not do away with the need to 
rely upon volunteers, concession operations, and others to help 
us deliver the program.
    With that, I will summarize by saying that we appreciate 
the opportunity to work with the Committee in the very near 
future to develop a replacement or a future rec fee 
demonstration program--or, a rec fee program, I should say. And 
once again, as I just said, it is more than collecting dollars; 
it is a way of managing our ever-increasing recreation use.
    With that, I would be glad to answer any questions.
    [The prepared statement of Mr. Bschor follows:]

   Statement of Dennis Bschor, Acting Associate Deputy Chief, Forest 
            Service, United States Department of Agriculture

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today. I am Denny Bschor, Acting 
Associate Deputy Chief for the National Forest System. We appreciate 
the Committee's interest in reviewing the recreational fee 
demonstration program and would like to work with Congress on 
developing a replacement for this very important program.
    The recreational fee demonstration program was first authorized by 
Congress in the fiscal year (FY) 1996 Interior Appropriations Act 
(Section 315 of Public Law 104-134). It has given the Forest Service, 
Park Service, Fish and Wildlife Service, and the Bureau of Land 
Management an important opportunity to test the notion of ``user-pays'' 
recreation where fees are collected and expended on-site to provide 
enhanced user services and facilities. The current authorization 
expires on September 30, 2002. Unless the demonstration program is 
extended or new authority is granted, this important tool will 
disappear at the end of fiscal year 2002, and our phase-out will begin 
even sooner.
    While some of our visitors and Forest Service employees are 
ambivalent over the idea of charging fees for recreation use on our 
national forests, taxpayers generally benefit when the cost of public 
services are at least partially borne by the direct users of these 
services. Ideally, with fee support for direct services, other critical 
recreation resource needs for the Forest Service would be fully funded 
through the appropriations process. Since there will always be limits 
on available resources, the existing fee authority complements our 
appropriated funds to better meet our visitors' expectations. The four 
agencies authorized to test fee retention have been working together at 
the local, regional, and national levels to gain better public 
understanding and resolve implementation issues.
    Through fiscal year 2000, nearly $70 million in new funding has 
been generated above congressional appropriations to enhance the 
visitor experience at 88 national forest projects across the United 
States. Program funds are making a crucial difference in providing 
quality recreation services, reducing maintenance backlog, enhancing 
facilities, enhancing safety and security, and conserving natural 
resources. Many of these services can be provided by Forest Service 
employees and equipment. In many cases, however, fee receipts collected 
by the Forest Service are used to fund service contracts providing 
additional economic benefit to our local communities.
    Some of the direct investments by the Forest Service of fee 
receipts through fiscal year 2000 include:
    <bullet> LNearly $17 million to reduce backlog maintenance and 
address public health and safety concerns through repair and/or 
replacement of inadequate toilets, picnic tables, building roofs, water 
and sewer lines, trails, and other facilities. Examples include 
maintenance of 940 miles of trails in Oregon and Washington, repair or 
replacement of four toilets, 300 shade ramadas, 25 picnic tables, and 
50 fire ring/grills at Roosevelt Lake in Arizona; and repair of a sewer 
line at Sitting Bull Falls in New Mexico.
    <bullet> LOver $7 million for new and improved interpretive and 
informational materials and services, such as signs, brochures, 
campfire talks, and visitor center staffing. Visitor centers at Mount 
St. Helens National Volcanic Monument in Washington operated for longer 
hours with additional interpretive talks than otherwise possible. Evans 
Notch Visitor Center in New Hampshire contacted 34,000 visitors and 
provided numerous children's programs. El Portal Visitor Center in 
Puerto Rico reached some 8,400 visitors through the ``Rent-A-Ranger'' 
and ``Forest Adventure'' programs.
    <bullet> LAbout $3 million for habitat enhancement and resource 
preservation such as improvements for wildlife viewing and fishing, 
erosion control devices, and historic building restoration. The Pack 
Creek bear viewing platform in Alaska allowed more than 1,400 visitors 
to view brown bears safely. Historic cabins throughout Arizona and New 
Mexico were rehabilitated for public use.
    <bullet> L$2 million for law enforcement to enhance the safety and 
accountability of all users, including 3,603 additional visitor 
contacts, 34 public ``emergency assists,'' and extinguishing 83 
abandoned campfires in southern California. At Canyon Creek in 
Colorado, visitor contacts increased 80%.
    <bullet> LAlmost $5 million for facility enhancements such as new 
trails, new campsites, and accessibility for the disabled. Some 
examples include leveraging funding with Volunteers for Outdoor 
Colorado to build a nature center on Mt. Evans near Denver, Colorado; 
improved wheelchair accessibility at three boat ramps and a beach on 
the Chequamegon-Nicolet National Forest; and new restrooms and an 
interpretive shelter at Keown Falls, Georgia.
    <bullet> LAbout $20 million for annual operation including visitor 
services, litter removal, toilet pumping, water sampling, supplies, and 
services, such as reserved permits, camping reservations, and heritage 
expeditions. One ton of refuse and abandoned materials were removed 
from wilderness areas in Idaho and Montana. The Boundary Waters Canoe 
Area in Minnesota maintained 660 wilderness campsites and 333 miles of 
trails. The Allegheny National Forest in Pennsylvania increased visitor 
contacts at boat launches and increased recreation site maintenance.
    The recreational fee demonstration authority encourages 
experimentation with a broad variety of fees to test feasibility and 
public acceptance. We made a conscious effort to avoid top-down 
directions and a ``one-size-fits-all'' approach to encourage creativity 
and local decisions as to how this program should be implemented. We 
have not allowed any indirect expenses to be paid with fee receipts.
    Initiation of fees has stirred some controversy and generated 
public and media interest. In the first years of experimentation, we 
did not always get it right. Some people remember those early problems 
to this day. But, we have listened, learned, and adjusted, and we 
continue to adapt to changing situations and new information today. The 
Forest Service has made a number of changes to projects based on public 
comment and our own monitoring. We would be glad to share with you the 
results of our public comment cards and survey and research information 
we have compiled. We have consolidated fees in places like the Pacific 
Northwest, where the ``Northwest Forest Pass'' replaced multiple fees 
on individual forests. We are providing better information on 
expenditures to our stakeholders, and inviting comments on how future 
revenue should be spent. We are working with other state and federal 
agencies to coordinate programs and fees. We are conducting market 
studies prior to implementation to learn more about visitor 
preferences. We are developing an understanding of what works and what 
does not.
    Throughout the first five years of the ``fee demo'' program, 
evaluation through research and monitoring has been ongoing. We believe 
that we now have enough information to examine what has been learned, 
provide a public forum for the program through congressional hearings, 
and develop policy for a nationally consistent, but locally driven, fee 
program. In developing this program, we would like to work with 
Congress on the lessons we have learned through the pilot program to 
establish standards of where and when to charge a fee.
    Based upon our research, we believe that policy objectives for the 
Forest Service fee program should include consideration for:
    <bullet> LEquity and community needs: Fees are fair and consider 
the needs of all potential users, including low income and minority 
communities.
    <bullet> LEfficiency: Fees encourage efficient delivery and use of 
public services.
    <bullet> LConsistency and Coordination: Fees are convenient to pay 
and agency policies do not discourage recreation use.
    <bullet> LRevenue Production: Fees supply an appropriate amount of 
revenue to provide for unmet recreational visitor and management needs, 
with a special understanding of the need to reduce the maintenance 
backlog.
    <bullet> LRevenue Distribution: Fees provide value at the site 
where they are collected.
    Fees are only one tool to achieve recreation management objectives. 
We have developed specific management standards and have calculated 
costs to achieve those standards. In addition to appropriated funding, 
means such as volunteers, concession operations, donations and grants, 
partnerships, and recreation fees help the Forest Service meet our 
objectives.
    The four agencies currently authorized to collect and retain 
recreation fees have been working together, along with a fifth agency, 
the Bureau of Reclamation, to draft proposed authorizing legislation 
for a recreation fee program. We would appreciate the opportunity to 
work with the committee in the very near future on developing a 
replacement for the recreational fee demonstration program. A 
successful recreation fee program is more than collecting dollars. It 
is a way to manage our ever-increasing recreation use.
    This concludes my testimony. I would be happy to answer any 
questions that you may have.
                                 ______
                                 
    Mr. Peterson. The chair thanks the gentleman.
    You said you have brought in $74 million so far. I am sure 
that that has been escalating as the years go by. Do you know 
what the last fiscal year figure was?
    Mr. Bschor. Last year, it was $31.9 million.
    Mr. Peterson. Is it growing?
    Mr. Bschor. It has been growing a slight amount. Initially, 
it grew a lot, but it is stabilizing because we have not had 
very many new projects recently. We have something like 88 
projects in 31 different States.
    Mr. Peterson. That was part of the demo?
    Mr. Bschor. Yes.
    Mr. Peterson. Okay. I am a supporter of the program. I 
think that most people are willing to pay for more costly 
services. What percentage do you think comes from the use of 
services? I struggle with admission fees; I am not as 
supportive of that. I think people should be able to enter a 
park. But to use certain costly facilities, then I think it is 
fair to ask them. Do you have any breakdown as to how much of 
it is from entrance fees?
    Mr. Bschor. I do not have that breakdown handy, but I could 
get it for you.
    Mr. Peterson. Could you hazard a guess?
    Mr. Bschor. It would be a very small amount.
    Mr. Peterson. A small amount--but there are some entrance 
fees, aren't there?
    Mr. Bschor. Yes, places like national recreation areas that 
have a specific entrance in and a specific way out--now, in the 
National Forest System, a lot of our lands do not have just one 
entrance and one exit.
    Mr. Peterson. Yes, they have many.
    Do you have the list of issues that were raised with you by 
Mr. McInnis' letter?
    Mr. Bschor. Yes, I do.
    Mr. Peterson. Do you want to quickly go through them?
    Mr. Bschor. There are quite a few--there are about 10--and 
they relate to much of what we have been hearing about the 
program over the past several years.
    The first one is the contention that a fee to recreate is a 
form of double taxation. We hear that a lot. The policy 
considerations over the degree to which Federal recreation 
resources should be subsidized by taxes and how much the user 
should pay is somewhat beyond the Forest Service to address, 
but I can say that the appropriations that we have provide for 
those broader public-interest types of needs in the recreation 
program. And I have a statistic here of $1,000 paid in taxes, 
about 29 cents goes toward the Forest Service Recreation 
Heritage and Wilderness Program. So it is obvious that 
allocations alone are not going to be enough to manage the 
program.
    The other thing is that the general public pays for the 
National Forests, and a lot of those folks never visit the 
National Forests, whereas the user receives the actual 
amenities and services by paying this fee. The theory is it 
will get better services and better facilities.
    The next one is that there are too many fees, and they vary 
too much from place to place. Well, as I mention in my 
testimony, we have really emphasized the demonstration aspect 
of that, and we would agree with that. In our future program, 
we have really got to look at managing that in a different way.
    There is a concern that the fee program is developed with 
little public input. I would say that this is a congressional 
program that we implemented fairly quickly initially, because 
there was about a 2-year time frame that the first program 
called for, and we did our best to include the public as much 
as possible in developing that initial program. But over the 
years, I think we have really done a lot better job of that.
    Another common criticism is that low-income people and 
people who are not as able to pay a fee are being prevented 
from recreating. This is very complex and has been the subject 
of many studies, with different conclusions, and has also been 
one of our concerns from the start. That is why we do a civil 
rights impact analysis to try to help us analyze that impact on 
low-income and minority users. But we have through the years 
provided free days throughout the year on many of these 
projects--most of them, actually. We have allowed for 
administrative passes for certain groups, such as school 
groups, Indian tribes, volunteers working on service projects 
and that sort of thing.
    Mr. Peterson. Okay, we need to shift. My 5 minutes is up, 
so I will turn to the ranking member, Mr. Inslee.
    Mr. Bschor. I got through half the questions.
    Mr. Inslee. Thank you.
    Just to demonstrate my bias before my question, I consider 
it really a sad day when the U.S. Congress makes a working guy 
who wants to take his family out for a picnic next to a stream 
to have to pay ``x'' number of dollars out of the last few 
bucks in his pocket to get to use a national resource. I think 
this is a terrible, terrible state that we are in that the 
Congress has so underfunded the responsibilities of the Forest 
Service in this regard.
    Having said that, what do you think is the best thing we 
can do to prevent the U.S. Congress from using this crutch to 
an even greater level in the future to make up for your 
shortfalls? What is the best way to keep this monster as small 
as we can--at least, assuming that that is your view.
    Mr. Bschor. Well, I would suggest taking a look at the 
recreation agenda that we have developed in the Forest Service 
and look at our priorities there.
    We do have many different concerns about our program 
delivery that we are trying to emphasize, but one is the 
backlog of maintenance that we have, and our estimates are 
somewhere around $812 million, and that is a ballpark figure 
that grows annually. So it is very difficult for us to really 
get ahead or to even catch up with that maintenance backlog. 
That is one item.
    Mr. Inslee. Well, let me just suggest that if we are all 
looking for a stimulus package, which we may be in the next few 
weeks, a great place to start is to get you to go out and hire 
some unemployed hotel workers to go out to work in the woods on 
that huge backlog, and I am all for it.
    Thank you very much.
    Mr. Peterson. I might just take the liberty of the chair to 
say that I think the problem that we have had is that all the 
money that should have been allocated for maintenance has been 
used in recent years to buy more land; and you cannot do both 
with the same dollars. So billions of dollars have been used to 
buy more, and that money in my view should be taking care of 
what we have.
    The gentleman from Idaho, Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    I thank you for your testimony, Denny. If you do not have 
this Recreational Fee Demonstration Project, how do you 
maintain those parking lots, trails, campsites, and so on?
    Mr. Bschor. We do that through the regular appropriations 
process.
    Mr. Simpson. That would be out of taxpayer money?
    Mr. Bschor. Yes.
    Mr. Simpson. That would be out of an appropriation by 
Congress?
    Mr. Bschor. Yes.
    Mr. Simpson. That would come from taxes from that poor 
working guy who wants to go out and sit at a campsite and have 
a picnic with his family?
    Mr. Bschor. It would come from taxes from all Americans.
    Mr. Simpson. So he is going to pay for it one way or 
another, either through the general fund in taxes that we take 
out and then appropriate one way or another, because quite 
frankly, Congress does not create money--it takes it from the 
taxpayer--or he is going to do it through actual user fees, so 
the guy who uses that is actually going to pay for it more than 
the general taxpayer. Is that correct?
    Mr. Bschor. That is correct.
    Mr. Simpson. I appreciate that.
    I have gone from supporting this program to opposing it to 
supporting it, and I actually think it is probably a pretty 
good idea where we have at least some type of user fee 
associated with this, because there is a lot of maintenance 
that needs to be done in these areas, a huge amount of 
maintenance, and if you have not been out to some of those 
sites, you need to get out to see them and also see some of the 
things that have actually been done with the recreation fees 
and what they have been able to do.
    I do have some problems with, as has been mentioned, the 
disparity or differences between different regions and the 
different fees that are imposed. I think there needs to a more 
uniform system of allocating it. And remind me--I am not 
certain--how much of the money stays within the area where it 
is generated?
    Mr. Bschor. The law says 80 percent. The agencies have 
dealt with that in different ways. At the Forest Service, we 
have tried to provide that 90 percent of that money goes back 
to the site.
    Mr. Simpson. We need to make sure somehow, however we do 
this, that the public is aware of where those improvements come 
from, that those fees actually go to those sites and to 
maintaining them.
    One of the problems that I have also heard about is the 
difficulty sometimes in collecting it. Some people pay it, some 
people do not, and sometimes it is kind of an honor system, 
because if it is a parking lot, some people might put the $5 
there, and some might not. So there can be great difficulty in 
trying to uniformly collect it.
    Has the Forest Service thought of any way to more 
effectively make sure that it is uniformly applied?
    Mr. Bschor. We have in fact looked at it very closely, and 
initially, since it was a demonstration program, it was a new 
program in the Forest Service where we were charging fees where 
we never had before. We took a nonpunitive approach. We use 
what we call a ``noncompliance notice,'' and in many cases, you 
would need to get three of those in order to get a ticket. So 
we have been very lenient relative to that. But I think that in 
a long-term program, we would need to look at that consistency. 
I think you are correct that that would need to be improved 
over time.
    But initially in the program, we felt that there was an 
education aspect of this and that we needed to at least give 
the user an opportunity to know what was going on and to not be 
punitive with them.
    Mr. Simpson. One other thing, and I do not know if you have 
an answer for this or not, and in fact, I did not know this 
when we actually passed the legislation, but in the Interior 
appropriation this year, there were a couple of attempts, one 
to repeal it, one to extend it for a year, and then, a 
successful amendment that prevented the imposition of the fee 
at the White Mountain Area in New Hampshire.
    Do you have any idea why we accepted that amendment and 
exempted the White Mountain parking pass?
    Mr. Bschor. No, sir. I know that the White Mountain has 
been one of the areas that has been controversial for some 
time.
    Mr. Simpson. Why has it been controversial as opposed to 
some of the others?
    Mr. Bschor. Initially, we had three or four projects 
nationwide where we initiated almost a blanket entrance fee for 
the forest, and we found that that did not go over very well. 
When we backed away from that and started charging just for 
facility use and trailhead use, that sort of thing, in most 
cases, that opposition went away. On the White Mountain, I 
think there is still some concern.
    Mr. Simpson. Well, if we decide to do this--we have had a 
demonstration project going since 1996, and I do not know how 
much demonstration we need--but if there are ways to improve it 
and make it uniform across the board so that everyone knows 
that, and Congress does not come in and say, well, you can do 
it in this area but not in this area--that would concern me.
    I appreciate it. Thank you.
    Mr. Bschor. Thank you.
    Mr. Peterson. I thank the gentleman.
    The gentleman from Colorado, Mr. Udall.
    Mr. Udall of Colorado. Thank you, Mr. Chairman.
    I want to thank you for holding the hearing for several 
reasons. For one thing, the Rec Demo Program is a matter of 
concern to many Coloradans, both proponents and opponents. 
Also, I think it is appropriate that this Committee and not the 
Appropriations Committee should take the lead in weighing how 
it has worked and whether it should be continued in its current 
form or with revisions.
    In connection with that statement, I have received a letter 
from the Colorado Mountain Club, outlining their suggestions 
for how we might proceed, and I would ask unanimous consent to 
have that letter included in the hearing record.
    Mr. Peterson. Without objection.
    [Letter follows:]
    [GRAPHIC] [TIFF OMITTED] T5401.002
    
    [GRAPHIC] [TIFF OMITTED] T5401.003
    
    [GRAPHIC] [TIFF OMITTED] T5401.004
    
    Mr. Udall of Colorado. I have some questions for the Deputy 
Chief, and I thank you for taking the time, Mr. Bschor, to join 
us today.
    When does the current authorization for this program 
expire?
    Mr. Bschor. September 30, 2002.
    Mr. Udall of Colorado. And am I right in understanding that 
the administration will be submitting a proposed legislative 
package for the program's reauthorization?
    Mr. Bschor. Yes. I understand the administration is working 
on such a package.
    Mr. Udall of Colorado. Do you have a sense as to when that 
might arrive?
    Mr. Bschor. No, I really do not. I would say at least a 
couple of months.
    Mr. Udall of Colorado. Do you agree that it would be 
appropriate for Congress to wait until we have a chance to 
review the proposal before we act on reauthorization?
    Mr. Bschor. I guess I really do not have an opinion on 
that. I think that is up to Congress.
    Mr. Udall of Colorado. I do believe you have some 
suggestions to make, though, which are implied in--
    Mr. Bschor. Yes, we have some suggestion on what a future 
program could look like, if that is what you are referring to. 
Yes, we would love to work with the Committee to provide that 
information.
    Mr. Udall of Colorado. So I would hope that we wait in this 
Committee and in the Congress in general until we hear from 
you. You have been on the ground; you have had a chance to 
analyze what is working and what is not working. I think that 
would make sense; do you agree?
    Mr. Bschor. I would agree.
    Mr. Udall of Colorado. On a tangential note, my colleague 
from Idaho asked about the situation in New Hampshire. I think 
we ought to call on Mr. Sununu or others to help explain the 
situation there, perhaps.
    I also heard my colleague from Pennsylvania suggest that 
perhaps the problem with maintenance and the backlog therein 
has to do with the acquiring of additional lands as opposed to 
directing moneys into maintenance. I did want to set the record 
straight that the acquisition moneys that are available, 
particularly through the Land and Water Conservation Fund, are 
designated for that purpose. And I note that you have $800 
million in backlogs that you have identified, and if I am not 
incorrect, the Land and Water Conservation Fund allocations 
have generally been in the $100 to $200 million range over many 
of the past years. One of the reasons we were working hard in a 
bipartisan fashion here in Congress to pass the CARA Act was to 
actually have a mechanism by which those moneys were directed 
to the purposes for which they were originally designed.
    It strikes me that many of these backlogs have been in 
place for many years and are a direct result not of additional 
land purchases--which actually, I think if you look at the 
Forest Service piece of the moneys that have been allocated, is 
not significant--but it is because visitation is increasing and 
that the Congress for many years has underfunded those needs, 
and we have turned to you to be creative and to find additional 
ways to help meet those demands.
    Do you have any comment in regard to the comments I have 
just made?
    Mr. Bschor. I would just support that the backlog consists 
mostly of recreation facilities, which includes everything from 
campgrounds to picnic grounds to boat ramps to trail systems. 
Most of those are in place.
    Mr. Udall of Colorado. Yes. With all due respect to my 
colleague from Pennsylvania, with whom I have worked on a 
number of issues successfully, I would welcome a look at 
whether additional land purchases have placed demands on the 
Forest Service, the National Park Service, and other Government 
agencies that are unreasonable and have increased in size and 
heft over the last number of years. I think it would be useful 
for us to look at; it might provide us with additional 
incentives to fully fund the maintenance backlog and perhaps 
inform us if in fact some land purchases need to be attached to 
maintenance and backlog funding as well.
    Mr. Chairman, with that, I would yield back the balance of 
my time.
    Mr. Peterson. I thank the gentleman.
    In response, I might say that the amount of money spent 
annually for purchasing land has been far greater than the Land 
and Conservation Fund. As someone who has been a part of the 
Interior budget for 3 years now, each and every year, it 
competes; every $1 billion we spent for land purchases comes 
out of an allocation that competes with maintenance money, and 
the maintenance money has been the loser year after year. There 
have been some very large earmarks that have purchased large 
pieces of land, but each year, it has been almost growing, I 
think, in recent budgets. Money that had been allocated for 
maintenance in the planning process has been taken away to buy 
land. I have watched it happen.
    I now recognize the gentleman from Idaho, Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman.
    I would agree with my colleague, the gentleman, Mr. Udall--
the one from Colorado, not New Mexico--although I might agree 
with you, too, Tom--that we ought to know where we are going 
with this, we ought to know what you folks think before we put 
something into the code and into permanent place before we go 
forward with the legislation.
    But Denny, let me ask you a question, as long as we have 
gotten onto this care versus CARA for the public lands that we 
already have. We were told that the Forest Service was $8 
billion behind in backlog work, which includes bringing up to 
speed the facilities for the Americans with Disabilities Act, 
Clean Air, Clean Water, noxious and invasive weeds--that the 
Forest Service was behind $8 billion. The BLM said they were 
behind $1.6 billion; and $800 million for the National Parks.
    I am only going to ask you about the Forest Service. Are 
some of those acts, like the ADA, Clean Water, Clean Air, part 
of the $8 billion backlog in maintenance, or not?
    Mr. Bschor. As far as the backlog I was discussing, the 
$800 million?
    Mr. Otter. Well, the $800 million is for parks only.
    Mr. Bschor. Yes, it is for recreation facilities only.
    Mr. Otter. Right.
    Mr. Bschor. The other, sir, I cannot answer; I could get 
you an answer on that later.
    Mr. Otter. Well, I think that would not only help us on 
consideration of whether or not we should make the user pay 
fees for the facilities that we are talking about, but it would 
probably also give us a little better direction on what the 
urgency is and where we should be doing a better job with the 
relatively little money that we have, whether we should be 
buying more land so that we can put it into disuse or abuse it, 
or whether we should be taking care of that which we have now 
and making those facilities a little more available.
    I would suggest, at least in part, that perhaps some of the 
fees that are being collected are being used to bring these 
facilities up to speed, for restrooms--is that right?
    Mr. Bschor. That is correct.
    Mr. Otter. So if you did not have to charge these fees in 
order to get some of this money at least for these facilities 
improvements, if we were using some of this money that we are 
using now to buy more land to put it into disuse, we may not 
have to charge these fees; right? Is that reasonable?
    Mr. Bschor. That is a theory, yes.
    Mr. Otter. Okay. Let me make another reasonable assumption. 
Do you see anything wrong with the working guy in Idaho paying 
for the working guy from another State like, say, Washington to 
come to one of the parks in Idaho, and that the working guy in 
Idaho is paying higher property taxes so we can pay for the law 
enforcement that is going to be required for this facility, so 
we can pay for the facilities themselves in some cases, the 
sewer systems, the water systems, much of the infrastructure 
that goes into that?
    I guess it is more of a rhetorical question, and I am sorry 
that my colleague from Washington was not here to hear me ask 
that very important and astute question.
    I am a ``user pay'' person. I do not think that some 
retired person who is still being asked to pay income tax on 
their minimum income should be paying for me to go and take a 
walk in the woods because I can and they cannot, or for me to 
drive to a National Park and park my car so that I can go for a 
walk in the woods to get some exercise. I do not think they 
should be paying for that, either.
    So from the get-go, let me just say that I am a ``user 
pay'' person. But it seems to me--and we went through this in 
Idaho, and my colleague from Idaho who was speaker of the house 
the whole time that I was president of the Senate of the State 
of Idaho, faced these kinds of decisions many, many times. But 
we found that to the degree that we diminished the income 
coming off the Idaho public lands, we had to make up from the 
general revenues of the public. So when we are no longer going 
to allow multiple use like logging and many other multiple uses 
that we might have, which heretofore had been paying, at least 
in part, a cash flow stream had been coming in to pay for some 
of these facilities and some of these activities, that we are 
going to have to stay with ``user pay,'' I believe.
    Mr. Chairman, I thank you very much for the time.
    Mr. Peterson. I thank the gentleman.
    I was not aware that we have Idaho's two best here.
    Mr. Simpson. Oh, yes. Not only that--Idaho's only two.
    Mr. Otter. But we are the best two.
    Mr. Peterson. Having served in both the House and Senate in 
State government, I am impressed.
    The gentleman from New Mexico, Mr. Udall.
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    I want to ask a little bit about the public acceptance of 
the fees. You have had for several years now experience with 
these fees. Has there been opposition to them? Is it site-
specific? Is it project-specific? Is it on a regional basis? 
What can you tell us about that? I think you have a website 
that interacts with the public on this. What can you tell us 
about the public acceptance of the fees?
    Mr. Bschor. It is kind of across-the-board. In gnarl, we 
have surveys that say that generally, the public who are using 
the sites and see what is getting done with their money are 
very highly favorable toward the system.
    We also have a general public in the realm of 17 to 30 
percent, depending on which study you look at, who do not want 
fees at all and never will want fees, because there were never 
fees there.
    We have outside studies, one from the Los Angeles Times, 
and there are internal studies. So it varies across-the-board.
    There are some specific sites where we had some concerns 
about how we applied the system by the demonstration, the 
experiment that we did; we did not start out real well, so we 
had low acceptance when it first started.
    In general, we see that as the program progresses, and 
people see what is done with the money that they pay, 
generally, the acceptance goes up.
    So it varies a lot. It depends also on the site to some 
extent.
    Mr. Udall of New Mexico. The fees clearly drive some people 
away from using the forests. What can you tell me about the 
number of people who stay away as a result of the fees, and is 
there any difference in categories or groups that use as far as 
the fees?
    Mr. Bschor. That is another one that is difficult to 
assess, because you have to do a general survey of the people 
who are not coming to the National Forest, which is harder to 
do, and those surveys generally--and I cannot quote you a 
specific figure--but that is in the realm of that 17 percent 
who are against fees. Now, whether they stay away totally and 
finally go to the site, I cannot tell you, but I would say it 
is in that realm of statistics.
    Mr. Udall of New Mexico. I am looking here at a written 
journal by a Forest Service person who did a study titled, ``Do 
User Fees Exclude Low-Income People from Resource-Based 
Recreation?'' and some of the information that I have indicates 
that the impact of these fees falls heavily on low-income 
families and minorities and that according to the Forest 
Service's own surveys, 15 percent of Hispanics, 12 percent of 
African Americans as compared to 9 percent of whites, did not 
enter an area where a fee was being charged. And income level 
also correlates with not entering fee areas.
    Do you think, when these are the public lands, that this is 
the way to operate lands with those kinds of results?
    Mr. Bschor. We are concerned about those results as well. 
That is why we have experimented with free days and some other 
ways of allowing use. I also want to remind everyone that the 
fee is not applicable to all National Forest System lands; the 
majority of National Forest System lands are still open to the 
public without a fee. But those are concerns that we need to 
look at, and if you have ideas that we can work with you on, we 
would be glad to look for ways to mitigate that impact.
    Mr. Udall of New Mexico. Do all the areas that have fee 
demonstrations have free days?
    Mr. Bschor. I cannot say that all of them do, but I would 
guess the majority of them do. I would have to get that 
statistic for you; I do not have it off the top of my head.
    Mr. Udall of New Mexico. But you would agree that this is a 
problem; I mean, the Forest Service sees it as a problem.
    Mr. Bschor. It is a concern that we need to deal with, yes.
    Mr. Udall of New Mexico. Several concerns have been raised 
about privatization and commercialization of our public lands. 
Is it true that many formerly Federal responsibilities such as 
maintenance and fee collection have been turned over to 
concessionaires and paid for with recreation fees?
    Mr. Bschor. Would you repeat the question, please?
    Mr. Udall of New Mexico. Yes, and let me ask another one on 
top of that. Is it true that these concessionaires who sell 
fees, like REI, take 20 percent of the commission of the fee? 
And the first question is is it true that many formerly Federal 
responsibilities such as maintenance and fee collection have 
been turned over to concessionaires and paid for with rec fees.
    Mr. Bschor. We use concessionaires to deliver a good 
portion of our program; I believe 30 percent of the campgrounds 
that we manage are under a concession program. But that is 
under a concession permit where they provide the service rather 
than us, so that actually, that is saving us from using 
appropriated dollars to manage that site.
    Mr. Udall of New Mexico. And they get a commission to do 
that?
    r. Bschor. Sure, they do, yes.
    Mr. Udall of New Mexico. Is the commission up toward 20 
percent or more?
    Mr. Bschor. I would have to get you the specific 
percentage, but it is probably--I am not talking about selling 
passes but just the provision of a recreation service out there 
as far as a campground--I am sure it is around 10 to 20 percent 
at least; they have to make somewhat of a profit in order to 
run a business.
    As far as the collection of fees for the permits, we have 
many outlets to help us sell the permits so that we can provide 
the permits to a wider variety of the public, so they do not 
have to come to a ranger station or to the site to get the 
permit; and there is an amount--I think it is around 10 
percent--that they would be able to keep for helping us sell 
that permit.
    Mr. Peterson. We need to move on.
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    Mr. Peterson. The gentleman from Indiana, Mr. Souder.
    Mr. Souder. I have a couple of requests at the beginning. 
Could you provide us with a current list of the forests that 
have a fee--we have one list here--and the amount of the fee 
for the different things that are there, so we can have an 
updated list here at the Committee that we can review?
    Mr. Bschor. Yes, we can provide you with that.
    Mr. Souder. Do you know approximately what percentage of 
all the forests have a fee at this point?
    Mr. Bschor. I can tell you that I think 80 National Forests 
have a fee program, and that includes 88 projects nationwide, 
and that they are in 31 States and Puerto Rico.
    Mr. Souder. About what percentage is that of the whole? I 
do not have a concept of--how many forests do you have?
    Mr. Bschor. About 150.
    Mr. Souder. So it is about half.
    Mr. Bschor. Yes.
    Mr. Souder. I would hope that we could look at a creative 
way to address this low-income people question, because it 
comes up in the National Parks Subcommittee as well, and I 
personally believe that it is not as big of a problem as it 
appears on the surface but would like to look at a creative 
way, such as a tax credit for low-income people that you could 
immediately take off or get rebated what you pay on these fees.
    I would be interested, if the Forest Service or the Park 
Service have not done this, if there could be a study of areas 
where there is no fee to see whether low-income people are 
using those areas. To say that low-income people are not using 
the areas where there is a fee is not comparing apples to 
apples. We have a general problem with low-income people not 
necessarily using the parks for multiple reasons, including 
transportation costs, and we ought to be comparing apples to 
apples. But the real way to address this for low-income people 
would merely be to have a tax credit, because we should not 
drop wise policies for the bulk of the population because of 
the few, and at the same time, we do not want to deprive those 
who are the least fortunate of the ability to visit.
    I have another concern, and that is that around a lot of 
the parks where there is a fee, you have National Forests that 
may also be charging fees, and a lack of coordination in 
planning. In some areas, like around Mount Saint Helens, it 
seems like we have a proliferation of visitor centers, and that 
could easily happen in other areas if these are not 
coordinated. I think this is something that we in Congress have 
to look at on a regional basis, not just a forest-by-forest or 
park-by-park. Particularly as we get national monuments and BLM 
as we now have, this is going to get extremely confusing if we 
do not get a handle on it.
    You mentioned the Northwest Pass for the forests. The 
programs that are listed here--is that by the Pacific Northwest 
region, the whole group, or who is included in that Northwest 
Pass?
    Mr. Bschor. The Northwest Pass is for the Pacific Northwest 
Region and includes Oregon and Washington.
    Mr. Souder. And that pass covers what?
    Mr. Bschor. The fee systems for the trailhead fees and--
    Mr. Souder. But not, for example, Christmas trees or 
camping fees?
    Mr. Bschor. I do not believe so, but I would have to check 
on that; I do not think so, no.
    Mr. Souder. It is an interesting thing to look at these 
things as regional concepts, because one thing that is 
happening with the National parks pass is that as more people 
get the full parks pass, all of a sudden the income goes down 
per park, particularly if you buy it nationally, and our whole 
concept of user fees is being destroyed.
    I think it is also important to point out for the record--I 
assume the logging income to the Forest Service has declined 
over time, or at least any growth in it.
    Mr. Bschor. Yes.
    Mr. Souder. And wasn't one thing that the logging companies 
did was to maintain and create roads?
    Mr. Bschor. Yes.
    Mr. Souder. And if your logging income has declined because 
we have prohibited logging, and your roads income has declined 
because we have prohibited logging, that leaves the Forest 
Service, if they are going to provide recreational 
opportunities, without other places to go, except to either the 
general Treasury or to fees; is that not a logical assumption?
    Mr. Bschor. Yes, it is.
    Mr. Souder. Thank you very much.
    Mr. Peterson. Mr. DeFazio has joined us from the full 
Committee.
    Please proceed.
    Mr. DeFazio. Thank you, Mr. Chairman.
    If I could follow up in response to the gentleman's 
questions on the Northwest, I do not know exactly how many 
forests we have, but the original situation in the Pacific 
Northwest was that we had some 13 forests, some of which were 
charging fees, some of which were not, some of whom were 
recognizing the others' passes, some of whom were not. So you 
actually had a situation within fairly short driving distance 
where you could have had to paper your entire windshield with 
different fee stickers. That was in the days when we had 
stickers. Two years ago, it went on the windshield; now, you 
hang them on the mirror. In any case, the consolidation has at 
least removed some of that confusion and been helpful to people 
who want to recreate in that area, although you still have to 
buy a different pass to go to California or a different pass if 
it does not apply in other parks, and so on and so on. So that 
is just to answer that question a little more comprehensively.
    To the Forest Service, again to follow up on the question 
about the way you raise funds to take care, before we had Rec 
Fee Demo, you charged for developed campsites, you charged in 
many cases for boat ramps, and the Park Service charged for 
parks, the BLM had some developed sites where they charged; is 
that correct?
    Mr. Bschor. That is correct.
    Mr. DeFazio. So you did not need the Rec Fee Demo 
authority, so the Rec Fee Demo actually began to charge people 
for dispersed recreation--is that correct--someone who might 
just drive out there on a logging road, park the car, get out 
and go hunting rocks or maybe, if it is permissible, go pick 
some ferns or something like that?
    Mr. Bschor. The difference is that the L&WCF Act allowed us 
to charge for certain facilities with a certain amount of 
amenities within those facilities, and the difference is that 
there was no fee retention as far as those fees coming back to 
the site; those fees went into the general Treasury.
    Mr. DeFazio. Right. We could certainly deal with that 
problem.
    Mr. Bschor. But the ability and authority that the Forest 
Service had was very limited to charge fees for certain 
specific sites.
    What Fee Demo did was give us an opportunity to try some 
fees for other types of recreational activities and services, 
such as trailheads, facilities where we did not have the 
authority to charge an entrance fee where we could now--
    Mr. DeFazio. Okay. So, basically, to park on a Forest 
Service road in Wilamette National Forest on a road that was 
paid for by taxpayers, just to park your car and get out and 
walk, either on the road or into the woods, whether there is a 
trial or not, you have to have a pass.
    Mr. Bschor. It is specifically for trailheads and 
facilities.
    Mr. DeFazio. Right, but you pass a sign at a certain point 
that says if you pass this point, you have to have a pass--I 
see those posted in various--
    Mr. Bschor. But they are applicable to the facilities that 
are listed.
    Mr. DeFazio. So do you have a map that shows where all 
these places are--because I will tell you, you drive to some 
trailheads and you do not see a sign; you drive to other 
places, and you do not even think you are near a trailhead, and 
you see a sign that says if you want to park here, you have to 
have a pass; and in other cases, it is clearly a trailhead 
parking lot.
    I have a lot of complaints from people saying, ``I do not 
even know where I really need this and do not need it.''
    Mr. Bschor. I would say that that is a part of the program 
we really need to take a close look at, that we need to be very 
clear on what you pay for and what you do not and make that 
more evident if it is not.
    Mr. DeFazio. And then, in terms of consumptive uses, does 
the Forest Service get any revenues from mining on Forest 
Service lands?
    Mr. Bschor. Once again, it goes through the general 
Treasury.
    Mr. DeFazio. And what is the cost to patent an acre of 
Forest Service land under the Mining Act?
    Mr. Bschor. I am not aware of that cost, but it is not very 
much.
    Mr. DeFazio. I think it is $3.50, which is less than--
    Mr. Udall of New Mexico. Two-forty.
    Mr. DeFazio. I thought it was $3.50--$2.40--sorry. So if I 
want to get a day pass to park my car, which occupies so many 
square feet, I have to pay $5, but if I can patent an acre of 
land and remove it from Federal ownership, and extract a 
valuable resource, I pay $2.40. Do we think that that is 
equitable?
    [No response.]
    Mr. DeFazio. Okay.
    Mr. Bschor. Are you asking me?
    Mr. DeFazio. That is above your pay grade. That is our 
problem here with policy.
    Anyway, thank you.
    Thank you, Mr. Chairman.
    Mr. Peterson. We thank you, Mr. Bschor. All other questions 
will be submitted for the record and will be responded to. I am 
sorry for the lack of time. We need to get the next panel up 
here, and we need to hear from you for 3 minutes each, and all 
questions for you will be submitted for the record, because we 
all have to be at a briefing at 4 o'clock.
    I would like to introduce the second panel.
    Mr. John Viehman is publisher of Backpacker Magazine.
    Mr. Doug Hoschek is co-founder of Public Access Coalition.
    Mr. Jason Robertson is Access Director for American 
Whitewater.
    Mr. Bob Warren is Chairman of the National Alliance of 
Gateway Communities.
    Welcome, and please proceed quickly.
    Mr. Viehman?

   STATEMENT OF JOHN VIEHMAN, PUBLISHER, BACKPACKER MAGAZINE

    Mr. Viehman. Thank you for inviting me to speak on behalf 
of the Fee Demonstration Program.
    While my position is that the concept has proven sound, I 
have to stress that it is sound only if we take what we have 
learned and adjust our sights accordingly, as you have heard 
from Denny. And the time for testing has passed. We should vote 
this up or down, make changes where they are needed, but let us 
make a decision. As you have said already, 5 years is enough.
    I have some reservations about how and where we implement 
new fees or increase existing fees for visitation to our public 
lands. However, as I indicated, I welcome the concept of having 
those who visit public lands for whatever reason pay for that 
privilege.
    I welcome the recognition that outdoor recreation is an 
economic force, and to the concern expressed by some detractors 
that this will commercialize our outdoor resources--with all 
due respect, what rock have they been living under for all 
these years?
    The logging, mining, and cattle grazing on our public lands 
has been there from the beginning, and that is certainly 
commercialization in my book.
    Let us agree now to put a legitimate and fair price tag on 
outdoor recreation and welcome it with open arms, because it 
will mean outdoor recreation has earned the right to a larger 
voice in the management of our resources--something it has not 
had in just about every debate for as long as I have been 
writing letters to Congress.
    This fee demonstration project makes a powerful statement 
about the economic value of outdoor recreation. Since 1996, 
according to Government sources, it has fed over $608 million 
in additional revenues to public lands.
    Concerns about fees excluding certain segments of our 
society from public lands do not wash, frankly--let us get over 
our misplaced guilt about elitism--or the concern that our 
nation's backcountry may become the exclusive playground of 
America's upper crust.
    First of all, there are ways--voucher systems, work-for-
credit programs, and innovative private sector programs, for 
example--to subsidize this end of things.
    Secondly, statistics show that in very quantifiable terms, 
the outdoors is not being used by those segments of the 
population that qualify as the struggling lower class. I am not 
saying that this is good or that I like it, just that this is 
what the outdoor recreation world is. If you take the average 
reader of our magazine, Backpacker, as representative of the 
core or center of the outdoor universe, you will see median 
household incomes of over $62,000, and 79 percent are college-
educated. They are not anything but ``upper class'' to my mind.
    Not only are they predominantly upper class, but they have 
more than enough discretionary income to afford higher fees for 
using our public lands. How much are we really talking about 
them paying, anyway? It seems to be averaging out to about the 
equivalent of what it would cost for two Happy Meals for your 
kids at McDonald's; two rides at an amusement park; even my 
monthly late charges for video rentals. This is not a lot of 
money, and certainly not for high-income households.
    Better still, every survey I have seen on this tells me 
that these people do not mind paying for the privilege of 
access to our public lands, with some important caveats.
    At Backpacker, we have tracked our readers' feelings on the 
issue of paying more for the past 5 years, and what we have 
found is that overwhelmingly, to the tune of 84 percent, they 
are willing to pay more as long as the money finds its way 
directly back into the resource. And when asked without that 
important caveat, the answers skewed heavily against additional 
funding to the tune of 89 percent opposed to it.
    Interestingly, nowhere has it been shown that higher fees 
have significantly reduced visitation, at least I am not aware 
of any cases. Quite the contrary--in the first year of the new 
fees, from 1996 to 1997, visitation increased almost 5 percent.
    Park Service surveys show that 83 percent of users were 
satisfied with the fee amounts or felt they were too low. Early 
Forest Service surveys pegged it at anywhere from 57 to 68 
percent satisfied.
    I alluded earlier to the notion of all users paying fair 
price for access to our Nation's public lands.
    Mr. Peterson. I apologize, but we need to move on.
    Mr. Viehman. All right.
    Mr. Peterson. You are doing well.
    Mr. Hoschek?
    [The prepared statement of Mr. Viehman follows:]

       Statement of John Viehman, Publisher, BACKPACKER Magazine

    Thank you for inviting me to speak on behalf of the fee 
demonstration project.
    As you will hear from other witnesses today, the program has not 
been without its shortcomings and detractors but it has made a positive 
impact overall. As you know, implementation was left up to the various 
agencies and only loosely coordinated. As a consequence, there were 
plenty of situations where the public was upset and at best confused. 
But everyone involved learned a lot, and that was the point of the 
project: To test the concept.
    While my position is that the concept has been proven sound, I have 
to stress that it's sound only if we take what we've learned and adjust 
our sights accordingly. And that the time for ``testing'' has passed. 
We should vote this up or down, make changes where they're needed but 
let's make a decision. Five years is enough.
    I have some reservations about how and where we implement new fees 
or increase existing fees for visitation to our public lands. However, 
as I indicated, I welcome the concept of having those who visit public 
lands, for whatever reason, pay for that privilege. It's important that 
we all recognize the value of the resource, and this program 
effectively does that. Consumer marketing experts know full well that, 
if you give away your product, the consumer attaches little value to 
it. The notion that visitors have paid for our public lands through 
taxes, while not to be diminished, simply doesn't provide the direct 
connection to create ``value'' with visitors to, in this case, our 
nation's forests. Certainly I've seen evidence of devaluing the 
resource from all users of public lands, and I'd wager that it relates 
to what those users either paid or didn't pay to be there.
    Bills such as this fee demonstration project are good for our 
outdoor community for lots of reasons. For one, I welcome the 
recognition that wilderness lovers are an economic force. And the 
concern expressed by some detractors that this will commercialize our 
outdoor resource well, what rock have they been living under all these 
years? The logging, mining and cattle grazing on our public lands have 
been there from the beginning, and that's certainly commercialization 
in my book. No, let's agree now to put a legitimate and fair price tag 
on outdoor recreation and welcome it with open arms, because it'll mean 
outdoor recreation has earned its right to a larger voice in management 
of the resource something it hasn't had in just about every debate for 
as long as I've been writing letters to Congress.
    This fee demonstration project makes a powerful statement about the 
economic value of outdoor recreation. Since 1996, it has fed over $608 
million in additional revenues to public lands, $88.5 million of that 
to our nation's forests. <1>
    Concerns about fees excluding certain segments of our society from 
public lands don't wash, frankly. Let's get over our misplaced guilt 
about elitism, or the concern that the backcountry may become the 
exclusive playground of America's upper crust. First of all, there are 
ways (voucher systems, work-for-credit programs, and innovative public-
private sector programs, for example) to subsidize this end of things.
    Secondly, statistics show that, in very quantifiable terms, the 
outdoors is not being used by those segments of the population that 
qualify as the struggling lower class. I'm not saying this is good, or 
that I like it, just that this is what the outdoor recreation world IS. 
If you take the average readers of BACKPACKER magazine as 
representative of the core, or center, of this outdoor user universe, 
you'll see median household incomes of over $62,000, and 79 percent are 
college educated. <2> They are not anything but ``upper class'' to my 
mind.
    Not only are they predominantly upper class but they have more than 
enough discretionary income to afford higher fees for using our public 
lands.
    How much are we really asking them to pay, anyway? Well, it seems 
to be averaging out at about the equivalent of what it would cost for:
    <bullet> Ltwo Happy Meals for your kids at MacDonald's;
    <bullet> La 1/2-day of childcare (in Pennsylvania);
    <bullet> Lbarely two rides at an amusement park;
    <bullet> Ltwo extra large boxes of popcorn at the theater;
    <bullet> Lmy monthly late charges for video rentals
    This is not a lot of money, and certainly not for high income 
households. Better still, every survey I've seen on this tells me that 
these people don't mind paying more for the privileges with some 
important caveats:
    At BACKPACKER magazine, we've tracked our readers' feelings on the 
issue of paying more for the past five years. What we've found is that 
overwhelmingly (to the tune of 84 percent!) <3> they're willing to pay 
more so long as the money finds its way directly back into the 
resource. When asked without the important caveat, the answer skewed 
heavily against any additional funding (to the tune of 89 percent 
opposed!) <3>
    One independent survey (Roper <4>) shows that only 15 percent would 
be unwilling to pay additional fees if they were assured it would go 
toward the resource. Interestingly, nowhere has it been shown that 
higher fees have significantly impacted visitation. Quite the contrary, 
in the first year of new fees, from 1996-97 visitation increased almost 
five percent.<5> Again, going back to my earlier comment, underlying 
some of this may be the notion that people value what they pay for, and 
the more they pay, the more they value it.
    Park Service surveys show that 83 percent of users were satisfied 
with the fee amounts or felt they were too low. Early Forest Service 
surveys pegged it at anywhere from 57-68 percent satisfied. <6>
    I alluded earlier to the notion of all users paying fair price for 
access to our nation's public lands. By extension, then, I'd add that, 
once we've established a baseline that accepts a value for recreational 
use of our public lands and a corresponding fee for that use, the same 
exercise should be applied to other users of our public lands, 
particularly timber, mining and grazing. Let's balance the scales so 
that the fees charged reflect the impact.
    Finally, I'd urge that the government consolidate its fees so that 
users aren't ``nickeled-and-dimed'' at every corner. When you ask for 
an entrance fee, a parking fee, a backcountry permit fee, a trailhead 
fee, and god-knows-what-else-will-be-inflicted-upon-us, all at 
different points, you risk annoying users to the point of opposition to 
something they're now clearly in favor of. Besides, the Congressional 
directive originally asked the agencies to make the fee demonstration 
project innovative, not inconsistent. And certainly, if fees are 
charged, they need to be related to the use. That is, in highly 
developed areas of high use, there are obvious needs for facilities to 
minimize impact (e.g., parking lots, toilets, shelters, etc.) Visitors 
who use them, know the value and will support fees related to that 
usage. On the other hand, there is very little real cost to maintain 
backcountry areas that realize comparatively low visitation, so those 
visitors should not be charged the same fees, if any, as frontcountry 
visitors. My point is that much work needs to be done at each national 
forest site to determine the most equitable distribution of fees and 
whether fees are even warranted in some areas. It's not a ``one fee 
serves all'' scenario, by any stretch.
    As an aside, I'd like to add that, while I'm representing my 
position as Publisher of BACKPACKER magazine and its readership, I also 
serve on the board of the Outdoor Industry Association, which is 
submitting testimony for the hearing record. I want to make it clear 
that I do not represent their position today. I encourage you to look 
over the OIA testimony carefully, however, because it includes some 
thoughtful analysis and a survey of other outdoor opinion leaders and 
businesspeople.
A summary of my key points:
    1. The research among the vast, vocal majority of user groups on a 
national level clearly shows this is one government idea worth 
supporting.
    2. User fees represent a much-needed financial shot in both arms 
for the Forest Service and our public lands generally.
    3. Public-private partnerships can supplement this program to 
remove any barriers it might pose to the American public.
    4. Before final implementation, agency heads should establish a 
period of public input and/or information exchange to ensure public 
support.
    5. Fees and the fee structure need to be finely crafted based on 
the individual resource and user groups.
    6. Other public land usage fees (e.g. timber, mining, and other 
resource extraction) should be evaluated to maintain parity with their 
relative impact and the market value of that resource.
    7. It's time to stop testing and implement this program across-the-
board.
    Thank you for letting me speak to you today.

References/Footnotes:
    1-Source: GAO Report To Congress, Nov. 1998 (GAO/RCED-99-7), pages 
31 & 88.
    2-Source: BACKPACKER magazine MRI-Doublebase 2001.
    3-Source: BACKPACKER magazine April 1995 Editorial Survey
    4-Source: ``Outdoor Recreation in America 1998'' by Roper-Starch, 
pages 4 & 26.
    5-Source: GAO/RCED-99-7, page 76.
    6-Source: Ibid, pages 6 & 80.
Biographical Information:
    JOHN VIEHMAN
    Publishing Director - Wilderness Travel Group, Rodale Inc.
    Publisher of Backpacker magazine (1988-present).
    Executive Producer and Series Host of the PBS television series, 
Anyplace Wild (1997-present).
    Board member of Outdoor Industry Association (2001-present)
    Former member of American Hiking Society Board of Directors (1990-
1999); Board Chair (1996-1999).
    Founding Host and Series Editor of the public television series, 
Trailside, for three seasons (1994-1996).
    Series Editor of Trailside Guides by Norton Press (1995-1996).
    Former board member of American Rivers (1978-1985).
    Former Editor & Publisher of Canoe magazine (1976-1985).
    Former Executive Editor of Practical Homeowner (1985-1988), Cross 
Country Skier (1988- 1990), and Adventure Travel (1988-1989) magazines.
    John Viehman started with Backpacker as Executive Editor when 
Rodale Inc. purchased the magazine in 1988 and became Publisher in 
1999. During that period, he has spent an inordinate amount of time in 
the wilds, developing ideas for the magazine as well as two public 
television series, three outdoor book series, a website, and, most 
recently, a WebTV convergence project. In 1997, the last time he tried 
to keep count, he logged over 150 days in the field developing 
information products while also searching for the perfect sunset, not 
necessarily in that order. No surprise that when he's not hiking down a 
trail, climbing up a mountain, paddling down a river or sailing across 
a seamless wilderness lake, John enjoys the simple life on his small 
Pennsylvania farm.
                                 ______
                                 

 STATEMENT OF DOUG HOSCHEK, CO-FOUNDER, PUBLIC ACCESS COALITION

    Mr. Hoschek. Thank you for letting me be here.
    I am from the State of Oregon, and when I leave here, I am 
going to drive 3,000 back to Oregon. My driver's license cost 
me about $15 for 4 years. Thank God I do not have to go through 
the system of forest passes to get there; I can stay on public 
highways and do it for free.
    In traveling here, I want to encourage everyone in this 
room to pay attention to the fact that the people of the United 
States of America have never been asked about their opinions of 
this Recreation Fee Demonstration Program. The Public Access 
Coalition was founded in 1999 by individuals in the outdoor 
industry, like myself, the developer of Polarfleece, and owners 
of major companies who stepped back and decided that we were 
citizens, not just business entrepreneurs trying to make a buck 
off the public lands. We decided to figure out how we would 
feel if we made $30,000 a year and we had to pay a $5 fee, if 
we had to give up the Happy Meal, if we had to decide that 
Johnny was going to go to school with his backpack and his 
hiking shoes and his fleece and be in a public school for free, 
but had to pay $5 to go to the National Forest with me on 
weekends.
    This thing has never been put--even though your process of 
Committees and the way you create legislation and laws in this 
country, you have never done this with fee demo, and now you 
want us to put up with another 4 years of it, which will make a 
total of 7. We have the 7-year itch; we do not want fees 
anymore. They are unfair, they are unpopular, they discriminate 
against people whether you make $62,000 a year or $22,000, or 
whether you are on unemployment.
    The public lands belong to the public. They were created by 
our taxes 100 years ago. We promised the Government that we 
would pay you taxes, you give us the land access for free. 
Whoever extracts anything from that land for commercial 
purposes, the public does not really care as long as you manage 
it properly and it does not impede the environmental impact on 
the land and it does not make it a stinkpot for us to recreate 
on.
    I cannot encourage you enough to pay attention to the 
people of the United States of America. One hundred million 
participants recreate in National Forests for the simple 
pleasures of viewing, picnicking, and just having a good time, 
putting their arm around somebody and watching a sunset.
    This is not about business. This is about people. 
Businesses do not pay fees to sell their products on public 
lands. People are being asked to pay fees on public lands.
    You have given hundreds of millions of dollars in subsidies 
to businesses to extract for the public lands. You gave $27 
billion to the farmers last year--farmers like Scotty Pippin, 
who plays basketball and received $172,000 to not cut some 
trees down on some land he owns someplace in the South.
    I wish I had an hour and 5 minutes. Now I have only 3 
minutes, and my drive from Oregon has taken me a hell of a lot 
longer than that. And I am really sorry that I had to listen to 
Mr. Bschor tell you things that he does not know about. We the 
people of the United States know about fees; we have been 
putting up with them for 7 years by the time you finish the 
extension. And by the time that is over, like the State of 
California and the State of Oregon have done, they passed 
resolutions demanding that you in Congress end the fee program. 
By next year, there will be seven more States demanding the 
same thing.
    I am sorry to talk so fast, but I am trying to race the 
clock.
    Thank you very much.
    [The prepared statement of Mr. Hoschek follows:]

           Statement of Doug Hoschek, Public Access Coalition

    I am Doug Hoschek and I live in the State of OREGON. My 
professional career for over 35 years has been in the development and 
marketing of outdoor fabrics and insulations. As the creator and 
codeveloper of polarfleece fabrics, I have worked with every type of 
outdoor recreation activity for over twenty years.
    In 1999, I organized and cofounded the PUBLIC ACCESS COALITION 
along with Patagonia owner Yvon Chouinard. Other cofounders include The 
Access Fund for climbers, The American Whitewater Association, Kelty 
Outdoor Products president, Casey Schean; nature photographer, Bruce 
Jackson; former Conservation Alliance president, Ron Nadeau; and the 
former Mayor of Bend Oregon, Bob Woodward. The mission statement of the 
Public Access Coalition addresses the issue of preserving and 
protecting citizens' rights to freely access federal recreation lands. 
The statement goes on to say we support reasonable access fees to 
National Parks and non discriminatory fees for developed sites or 
services on public lands like fees at public campgrounds.
    My testimony argues that the Recreation Fee Demonstration Program 
should be ended. It is unfair and unpopular, and has never been 
properly authorized.
REASON ONE: FAIRNESS
    Fee demo was foisted upon the public at large without any public 
hearings or debate in Congress that would have allowed what you are 
doing in this hearing today. Getting public testimony.
    The National Forests are public lands that since their creation 
have been funded by citizens' taxes. The maintenance and health of all 
National Forests is provided by tax paying citizens on an equal basis 
and the amount one pays in taxes does not determine or affect any 
citizens' ownership of or access to National Forests. Fee demo is seen 
as a second tax upon all citizens and has proven to be a financial 
hardship to middle income and lower income citizens. To prove this 
point, I offer you a survey conducted in Vermont and New Hampshire by 
scientists from the USDA Forest Service and the University of 
Massachusetts. The study shows that user fees may substantially reduce 
participation in recreation by those earning less than $30,000 per 
year. I further offer you a letter published in the Outdoor Retailer 
Magazine by John Viehman, which clearly states citizens with incomes of 
over $58,000 a year don't mind paying fees and that lower income 
citizens don't have the means to recreate on public lands like our 
National Forests and National Parks.
    As further evidence of the FAIRNESS issue, the State Legislature in 
California heard so many complaints from its citizens about the 
UNFAIRNESS OF FEE DEMO in National Forests that the State voted 
unanimously to pass a resolution calling for the end of the fee 
demonstration program in California, which was sent to President 
Clinton and Congress last year in 2000. Furthermore, the State of 
Oregon has done the same in 2001. The State of New Hampshire is 
finalizing a similar resolution at this time. Strong reports from 
citizens, recreation groups, and newspapers in Washington State, 
Montana, Alaska, Colorado, Idaho, Arizona, and Utah indicate similar 
resolutions are in the works.
    The USDA Forest Service is now labeling visitors to the national 
forests ``customers''--whether they come for a hike or to watch the 
sunset--and with this label, are blocking access and charging unfair 
fees.
REASON TWO: FREEDOM
    In 1997 a survey was released by the USDA FS and the SGMA (Sporting 
Goods Manufacturers Association) titled Emerging Trends in Outdoor 
Recreation Participation. The survey listed the annual number of 
participants for many types of outdoor activities.
    Outdoor activities with the highest number of participants were 
walking, viewing, and picnicking, with 100 million participants in each 
activity per year. These low-impact activities, which formerly could be 
pursued at no cost on our National Forests, now come with a price. The 
incomes of 100 million adults in this country that participate in these 
recreation activities ranges from low to middle to high. But a great 
many of these recreationists live near National Forests and most jobs 
in those towns do not pay over $30,000 a year.
    The three essential outdoor products that recreationists buy are 
backpacks, hiking boots and fleece. The purchase of these three 
products combined runs about $100. A 1999 study from the Luggage and 
Leather Manufacturers Association of America showed that 50% of outdoor 
gear is purchased at discount retail stores while only 6% is purchased 
at specialty stores. In addition, sales of outdoor products have been 
dropping since 1999. Recreation fees could make it even harder for 
Americans to buy the products they need to participate in recreation 
activities.
    Fee demo is not increasing access to our forests; it's restricting 
it. Fee demo means National Forests are closed during hours when local 
residents are off from work. Instead of being open 24/7 we now find 
tollbooths with poles across the entryway and signs saying 9-5. 
Arguments to support the restricted use of National Forests center 
around not enough manpower to be at toll gates and issues of vandalism. 
But is fees can not provide enough staff to keep forests open, the 
program is not working.
    Allowing the public to freely access public lands they already own 
and support with their taxes should not be compromised. It is hard to 
believe that there are no funds to properly maintain the health and 
services of our National Forests when hundreds of millions of tax payer 
dollars are given to private interests in logging, grazing, and mining 
subsidies.
    Please investigate all these spending practices and you will surely 
find the funds to keep the access to National Forests free of fees and 
free of unnecessary closures that keep hardworking citizens out of 
their Forests.
                                 ______
                                 
         John Viehman - Editorial Director Backpacker Magazine
                 From: Outdoor Retailer - November 1999
Get behind user fees, or else
    I had to cringe when I heard the news that a small but vocal group 
of Industry leaders staged a protest over extending the Recreational 
Fee Demonstration Program, or the agency experiment to raise fees on 
public lands. My hope was that the protest wouldn't garner much news 
and quickly disappear under the weight of its own wrong-headedness.
    Bills such as this fee demonstration project are good for our 
outdoor community for lots of reasons. Upfront, though, let me just say 
that I welcome the recognition that wilderness lovers are an economic 
force. And the concern expressed by this group that this will 
commercialize our outdoor resource.. well, what rock have they been 
living under all these years? The logging, mining and cattle grazing on 
our public lands has been there from the beginning, and that's 
certainly commercialization in my book. Let the Feds put a price tag on 
outdoor recreation and welcome it with open arms, because it'll mean we 
then get a larger say in management of the resource - something we've 
been losing ground on in just about every area for as long as I've been 
writing letters to Congress.
    This one program since 1996 has demonstrated its clout by feeding 
close to $284 million in additional revenues to public lands, a 70-
percent increase from 1996 to 1998.
    Concerns about fees excluding certain segments of our society from 
public lands don't wash either. Let's get over our misplaced guilt 
about elitism, or the concern that the backcountry may become the 
exclusive playground of the upper crust. First of all, there are ways 
(voucher systems, work-for-credit programs, for example) to subsidize 
this end of things. Secondly, I'm of the school that says, ``See the 
world for what it is, then seek to change it.''
    Statistics show that in very quantifiable terms, the outdoors isnot 
being used by those segments of the population that qualify as non-
elite (mainly low education, low income, minorities, etc.). I'm not 
saying this is good, or that I like it, just that this is what the 
outdoor recreation world is. If you take the average readers of 
Backpacker magazine as the core, or center, of this outdoor user 
universe, you'll see median household incomes of over $58,000 and 76 
percent are college educated. This is not anything but ``elite'' to my 
mind.
    Not only are they elite, but they have more than enough 
discretionary income to afford higher fees for using our public lands. 
How much are we really asking them to pay, anyway? Well, it seems to he 
averaging out at about the equivalent of what it would cost for:
    <bullet> Ltwo Happy Meals for your kids at McDonald's
    <bullet> La day of childcare (in Pennsylvania)
    <bullet> Lbarely two rides at an amusement park
    <bullet> Ltwo extra large boxes of popcorn at the theater
    <bullet> Lmy monthly late charges for video rentals
    This is not a lot of money, and certainly not for high-income 
households, better still, every survey I've seen on this tells me that 
these people don't mind paying more for the privileges.. with some 
important ``ifs''
    At Backpacker magazine, we've tracked our readers' feelings on the 
issue of paying more for the past five years. What we've found is that 
overwhelmingly (to the tune of 84 percent!) they're willing to pay more 
so long as the money finds its way directly back into the resource. 
When asked without the important caveat, the answer skewed heavily 
against any additional funding (to the tune of 89 percent opposed!).
    One independent survey (Roper) shows that only 15 percent would be 
unwilling to pay additional fees if they were assured it would go 
toward the resource. Interestingly, nowhere has it been shown that 
higher fees have significantly impacted visitation. Quite the contrary. 
In the first year of new fees, from 1996 to 1997, visitation increased 
almost 5 percent. Underlying some of this may be the notion that people 
value what they pay for, and the more they pay, the more they value it.
    Park Service surveys show that 83 percent of users were satisfied 
with the Fee amounts or felt they were too low. Early Forest Service 
surveys peg it at anywhere from 57 percent to 68 percent satisfied.
    My final point has more to do with political realities than 
anything else. A few years ago, a tax proposal came out of Washington, 
D.C., that was essentially a misguided ``hidden' excise tax on outdoor 
equipment. While I was vocal in my opposition to this ill-conceived 
tax, I saw that by not offering an alternative, as an industry we 
cashed in considerable goodwill in Washington. Turns out, we beat the 
tax and our outdoor lives have gone on. Now comes another funding 
proposal, this one not nearly in the same league. If we as an industry 
oppose it, we risk losing whatever political firepower we once had, 
which could prove important to a battle that truly should be fought 
sometime in the future. We cannot be perceived as 'against' everything, 
but we can be in favor of publicly supported programs when they present 
themselves, and offer alternatives when they don't.
    Bottom Line: The research among the vast, vocal majority of user 
groups on a national level clearly shows this is one government idea 
worth supporting. It'll mean a shot in both arms for our public lands.

    [The article, ``Do User Fee's Exclude Low-income People 
from Resource-based Recreation?'' has been retained in the 
Committee's official files.]
                                ------                                

    Mr. Peterson. I commend the gentleman's speed and accuracy.
    Mr. Robertson, please proceed.

    STATEMENT OF JASON ROBERTSON, ACCESS DIRECTOR, AMERICAN 
                           WHITEWATER

    Mr. Robertson. Good afternoon.
    Mr. Chairman and members of the Subcommitee, it is an honor 
and a privilege to be invited by the majority to speak about 
permanent extension of the Forest Service Recreation Fee 
Demonstration Program, Fee Demo.
    I am Jason Robertson, Access Director for American 
Whitewater. I speak here on behalf of a broad cross-section of 
America's recreationists and sportsmen through the human-
powered recreation coalition which represents more than half a 
million member canoeists, hikers, backpackers, cross-country 
skiers, climbers, and bikers.
    I personally am a hiker, a camper, a boater, a climber, a 
kayaker, a canoeist, and an occasional fly fisherman. Fee demo 
affects me on a personal as well as a professional level.
    Our recreation community is encouraged that the Subcommitee 
members are taking a personal interest in the future of this 
program. We look forward to working with you in the coming 
months to ensure that recreationists will continue to enjoy 
quality, affordable outdoor recreation opportunities on 
America's public lands.
    As indicated in my written testimony, there is consensus 
among recreationists that it is wrong to continue luring the 
agencies on with temporary extensions of fee demo. It prevents 
the agencies and the Forest Service in particular from fixing 
problems inherent to the system today, including real issues of 
fairness, equity, and coordination.
    However, simply making fee demo a permanent collection 
authority is not the solution, because it would remove any 
incentive to the agencies to remedy existing problems with the 
program.
    There is disagreement on whether the best solution is to 
approve a permanent albeit hobbled program, or simply to allow 
this broken experiment to expire.
    I myself am torn. I believe that the agencies, and the 
Forest Service in particular, do not need fee demo and should 
not charge Americans to visit their public lands. While the 
program has raised a few dollars for maintenance, it has come 
at the expense of some core American values and principles.
    I ask in my written testimony whether you can imagine being 
ordered by your family to pay $5 to enter your home, or being 
commanded to pay $5 to enter your church to worship. Making 
America's sportsmen and recreationists pay for entry to the 
public lands that we own is little different. It also 
constitutes double taxation on the public.
    Mandatory fees should be discouraged, and Congress should 
consider and encourage broad voluntary contribution programs to 
maintain recreation facilities and services on public lands.
    Now, speaking once again for the human-powered recreation 
community, we support no more than a single 1-year extension of 
fee demo in the fiscal year 2002 Interior appropriations bill. 
This 1-year extension will give the authorizing Committees time 
to hold public hearings and judge the fate of this 
demonstration program.
    The recreation community would consider supporting certain 
user fees if there is a firm commitment to providing adequate 
public land funding via appropriations with an emphasis on 
restoration and maintenance. However, we have found that there 
have been real funding offsets for the agencies since the 
program was implemented and that budgets have been effectively 
flatlined. Hence some of our trepidation for supporting even a 
modified program.
    If a permanent fee authority is granted, there is some 
support for entrance fees to National Parks and us fees at 
developed campgrounds on public lands. In addition, there could 
be justification for charging fees at a few specific, high-use 
recreation areas.
    However, the community is not likely to support fees at 
these additional developed recreation sites without a broader 
evaluation of the program and implementation of limits on the 
collection authority.
    Finally, and I would like to emphasize this, there is broad 
opposition for fees among recreationists and sportsmen for 
accessing undeveloped recreation activities such as trail use, 
backcountry hiking and fishing, kayaking and canoeing, and 
mountaineering.
    In summary, it is time to stop testing the wildlife and 
recreation management agencies. We have to feed them with 
adequate public funding, put them out of the fee collection 
business, or tie the scope of the fee collection authority and 
make them truly accountable to the taxpayers, sportsmen, and 
recreating public they serve.
    If Congress determines that fee demo should continue, it 
should be modified such that fairness issues are addressed and 
should be limited solely to developed sites rather than 
traditional, undeveloped backcountry activities including river 
use.
    This concludes my oral statement. I would be glad to speak 
about specific elements of the fee program later.
    Thank you.
    [The prepared statement of Mr. Robertson follows:]

   Statement of Jason Robertson, Access Director, American Whitewater

Summary:
    Outdoor recreationists and sportsmen believe that it is 
inappropriate to continue extending the Fee Demo program through the 
appropriations process. For that reason, the human-powered recreation 
community is encouraged by this subcommittee hearing. We support no 
more than a single one-year extension in the fiscal year 2002 Interior 
Appropriations bill. This one-year extension will give the authorizing 
committees time to hold public hearings and judge the fate of this 
demonstration program. In a broad analysis:
    <bullet> LThe recreation community would consider supporting 
certain user fees if there is a firm commitment to adequate public land 
funding via appropriations with an emphasis on restoration and 
maintenance.
    <bullet> LThere is some support for entrance fees to National Parks 
and use fees at developed campground sites on public lands. In 
addition, there could be justification for charging fees at specific, 
high-use recreation areas. However, the community is not likely to 
support fees at these additional developed recreation sites without 
cautious evaluation and strong parameters (i.e. limiting use of funds 
to maintenance and projects directly benefiting recreation, and 
specifically excluding administration costs for planning and 
enforcement).
    <bullet> LThere is broad opposition for fees for undeveloped 
recreation activities, such as trail use, backcountry hiking, kayaking 
and canoeing, and mountaineering.
    <bullet> LFees will impact future outdoor recreation, as well as 
how recreation is managed on public lands. We are committed to working 
with Congress and the public land agencies to ensure that 
recreationists will continue to enjoy quality, affordable, outdoor 
recreation opportunities on America's public lands.
Statement:
    Good afternoon. Mr. Chairman and members of the subcommittee, it is 
an honor and a privilege to be invited by the majority to speak before 
the committee about permanent extension of the Forest Service 
Recreation Fee Demonstration Program.
    I am Jason Robertson, Access Director for American Whitewater. I am 
speaking here on behalf of a broad cross section of America's human-
powered recreation industry and sportsmen. I, personally, am a hiker, a 
camper, a boater, a kayaker, a canoer, an occasional fly fisherman. Fee 
Demo affects me on a personal as well as a professional level.
    I would like to share a story with you that I prepared for our 
magazine, the American Whitewater Journal.
    When I was 11 my grandmother invited my family home for 
Thanksgiving.
    Unfortunately, my beagle, Maggie, had just broken her leg and had 
to wear one of those satellite dishes so she would not lick her 
stitches. She looked pitiful, and we figured we could not leave her 
alone for the weekend.
    Grandmother invited us to bring Maggie up to keep her company while 
she was cooking in the kitchen. It seemed like a good idea at the time.
    Well, Grandmother finished cooking the turkey, and placed it on the 
kitchen table to cool. We left the dog in the kitchen and went in the 
dining room to say grace.
    A few minutes later we went back in the kitchen to slice the turkey 
and found that Maggie, even with that satellite dish hobbling her, had 
leapt up on the table and was gnawing on the turkey.
    We learned that we could not tease the dog forever. You have to 
feed him, put him out, or tie him up.
    Now, we thought leaving the dog in the kitchen with the turkey was 
a good idea. As we learned, without appropriate supervision, it was not 
and neither is Fee Demo.
    When we, sportsmen, recreationists, and Congress joined together in 
1996 to give the agencies permission to test the idea of collecting 
funds from the public, it also seemed like a good idea. Unfortunately, 
we started this program by locking the dog in the kitchen with the 
turkey and turning our back on her. We have given the Forest Service, 
Park Service, BLM, and Fish & Wildlife Service authority to collect 
funds without any real oversight, review, or evaluation.
    To make matters worse, we have teased the agencies for three years 
with these arbitrary extensions of Fee Demo and lured them on with the 
promise of permanent Fee collection authority. It is little surprise to 
find that the agencies have gone to such extraordinary lengths to 
expand their fee collection programs after being teased with this test 
program for six years. Unfortunately, the agencies desire for funding 
has blinded them to the consequences of their actions. This hearing is 
the first step to remedying this unfortunate situation.
    It is time to stop teasing the wildlife and recreation management 
agencies. We have to feed them with adequate public funding, put them 
out of the fee collection business, or tie the scope of the fee 
collection authority and make them truly accountable to the recreating 
public that they serve.
    Personally, I think Fee Demo is a failure. American Whitewater's 
membership and board agree with me. Therefore we dropped our support 
for the program in 1998 after observing that 20% to 25% of all Fee 
collection sites target river users, though boating represents less 
than 1% of Forest and Park visitation. In essence, we have found that 
boaters are subsidizing all other forest visitors through Fee Demo.
    In July 2001, the human-powered recreation coalition of hikers, 
bikers, skiers, climbers, and boaters wrote the Senate Appropriators:
        The program has now been in demonstration phase since 1996. We 
        believe that it is inappropriate to continue to extend the 
        program through the appropriations process. If this issue is to 
        move forward, an evaluation by the authorizing committees is 
        necessary. For that reason, we strongly urge Interior conferees 
        to support no more than a one-year extension in the fiscal year 
        2002 Interior Appropriations bill. This one-year extension will 
        give the authorizing committees time to hold public hearings 
        and determine the fate of the program.
    As indicated, recreationists do not support the extension of Fee 
Demo without a complete and fair review. This program was implemented 
as a test, a demonstration, but there's been little oversight. In fact, 
the agencies have been tasked with reviewing their own successes or 
failures and have claimed that because many people pay the fees there 
is evidence of support for the program. The GAO has repeated the 
claims. The logic of this argument is flawed, and the fact that the 
public is obeying the law should not be confused with whether the 
public actually supports the law. It is essential for Congress to 
seriously evaluate both the negative and positive sides of this 
program.
    It is my belief that the agencies, and the Forest Service in 
particular, don't need Fee Demo and don't need to charge Americans to 
visit their public lands. While the program has raised a few million 
dollars it has come at the expense of some core American values and 
compromised many of our basic principles. Can you imagine being ordered 
by your grandparents to pay $5 to come in the house for Thanksgiving; 
or being commanded to pay $5 to enter your church to worship? Making 
America's sportsmen pay for entry to the public lands that we own is no 
different.
    Mandatory fees should be discouraged, and Congress should consider 
and encourage voluntary contribution programs.
    American Whitewater manages property all over the country for 
recreation. We acquire some outright, lease some, and simply engage in 
partnerships in other locations.
    Currently, we are partnering with Maryland's Department of Natural 
Resources (DNR) to manage river access on the Youghioheny River in 
Garrett County. The DNR was tasked by the state with cost recovery for 
the site, which amounted to $8000 a year. The DNR raised about $1000 in 
the first year and less than $400 in the second.
    American Whitewater stepped in to prevent ticketing for violators 
and closure of the site. We provide toilets, changing rooms, and mow 
the grass at the site for less than $300 a year with the help of 
volunteers. We also collect over $1000 a year in donated funds at the 
site, which are set aside for future projects. We found that visitors 
will volunteer and provide funding if they detect a direct benefit from 
their contributions.
    Now, American Whitewater is a small non-profit, so the logical 
question is whether the agencies can also use this model of funding 
maintenance and upkeep for recreation though volunteers and donations, 
rather than a mandatory fee system? The answer is yes.
    Dave Cernicek is the Forest Service Backcountry and River Manager 
on the Snake River in Jackson Hole, Wyoming. He opted out of Fee Demo 
and has managed to provide new toilets, fresh drinking water, improved 
parking, new river access, and even shaded park benches through a 
voluntary donation program called the Snake River Fund.
    He will be the first to tell you that it is difficult and time 
consuming to manage volunteers and solicit donations. But he will also 
tell you that it is rewarding, that it has made the agency directly 
accountable to visitors, and that those visitors are getting the 
maintenance that they have asked for. As Ranger Cernicek has told me, 
``visitors vote with their dollars, and I aim to satisfy them.''
    In contrast, Fee Demo is not accountable to the public. The fees 
are often unfair. The agencies are unresponsive. And, recreationists 
and sportsmen are not getting the services that they desire or deserve.
    During the course of the Fee Demonstration program, the outdoor 
community has learned that outdoor recreationists and sportsmen believe 
it is inappropriate to continue extending the Fee Demo program through 
the appropriations process. For that reason, the human-powered 
recreation community is encouraged by this subcommittee hearing. We 
support no more than a single one-year extension in the fiscal year 
2002 Interior Appropriations bill. This one-year extension will give 
the authorizing committees time to hold public hearings and judge the 
fate of this demonstration program. In a broad analysis:
    <bullet> LThe recreation community would consider supporting 
certain user fees if there is a firm commitment to adequate public land 
funding via appropriations with an emphasis on restoration and 
maintenance.
    <bullet> LThere is some support for entrance fees to National Parks 
and use fees at developed campground sites on public lands. In 
addition, there could be justification for charging fees at specific, 
high-use recreation areas. However, the community is not likely to 
support fees at these additional developed recreation sites without 
cautious evaluation and strong parameters (i.e. limiting use of funds 
to maintenance and projects benefiting recreation, and specifically 
excluding administration such as planning and enforcement).
    <bullet> LThere is broad opposition for fees for undeveloped 
recreation activities, such as trail use, backcountry hiking, kayaking 
and canoeing, and mountaineering.
    Fees will impact future outdoor recreation, as well as how 
recreation is managed on public lands. We are committed to working with 
Congress and the public land agencies to ensure that recreationists 
will continue to enjoy quality, affordable, outdoor recreation 
opportunities on America's public lands.
                                 ______
                                 
    Mr. Peterson. Thank you. Mr. Warren, please proceed.

STATEMENT OF BOB WARREN, CHAIRMAN, NATIONAL ALLIANCE OF GATEWAY 
                          COMMUNITIES

    Mr. Warren. I am Bob Warren, and I am Chairman of the 
National Alliance of Gateway Communities, an organization 
dedicated to working with gateway communities and the Federal 
land management agencies.
    Gateway communities have a symbiotic relationship with 
public lands in that they are adjacent to public lands. They 
see the benefit of the Fee Demo Program in that it does provide 
additional, quality product that does have a value to the 
consumer.
    Most recently, we had a meeting for our organization in 
Grand Junction, Colorado, which happens to be in your district, 
and we saw the difference that public lands were making to the 
community in Grand Junction. They went through an oil shale 
period where they were relying on natural resources, and now 
tourism has helped that community come back to its grandeur.
    Why charge fees on Forest Service lands? There is a variety 
of reasons. Most important, it provides support for nationally-
designated areas. There are many areas out there on Forest 
Service lands that have never had the funding necessary to 
adequately maintain them.
    Fees allow for more timely response to needs. A major 
advantage of charging a fee for a specific site is the ability 
to solve problems and mitigate the impact of heavy usage that 
that site might have.
    There is local support for fees when fees are used locally. 
There are a number of areas in our country that are now going 
through an educational process to let people know that their 
fees fund particular projects, and that is receiving widespread 
support.
    Fees provide for unmet needs. Often in our local forests, 
issues come up with heavy usage, and the appropriation process 
does not necessarily solve them in a timely fashion. Fees help 
in that process.
    One area that has been discussed is why pay for something 
that is already covered by taxes, and also the impact on lower-
income people. In California about 3 years ago, the Governor 
reduced all State Park fees by one-half. It did not double the 
usage in any of the parks in California and so just decreased 
the amount of money available to the parks to use for 
maintenance.
    We hope that you will look at some of the issues that might 
come up when it comes to fees, and most importantly, we want 
you to give guidance to the Forest Service so they are not 
using fees to provide for competition with the private sector. 
Using them for maintenance is fine, and we think that is a 
great idea.
    We also know that a problematic area is in working with 
locals. Most of those problems have been solved through 
offering an annual pass.
    I appreciate the opportunity to come here and talk to you 
about this. We certainly hope that the fees will be used to 
provide an average usage for all campgrounds--for example, not 
charging one amount in one area and a different amount in 
another area.
    We think this is a great program that deserves support by 
Congress.
    Thank you very much.
    [The prepared statement of Mr. Warren follows:]

    Statement of Bob Warren, Chairman, National Alliance of Gateway 
                              Communities

    Good afternoon. It is a genuine pleasure for me to be part of this 
important hearing today. I am Bob Warren and I am Chairman of the 
National Alliance of Gateway Communities. NAGC is the national 
organization that represents the interests of hundreds of communities 
that serve as ``gateways'' for millions of visitors to the treasures of 
our national forests, parks and other Federal public lands. I am also 
General Manager of the Shasta Cascade Wonderland Association, a multi-
jurisdictional tourism marketing organization in Northern California.
    Outdoor recreation on public lands is as important to the social 
fabric of America as baseball and apple pie. The United States is 
unique in that it has set aside millions of acres of public land for 
the use of all. Our country offers probably one of the most extensive 
``menus'' of recreational opportunities on public lands of any nation 
in the world. A number of communities in the west have either developed 
because of outdoor recreation or have transitioned into being service 
centers for those users of public lands. There are numerous examples of 
communities that were founded because of resource extraction and that 
have now become healthy and viable recreation oriented destinations for 
ever-increasing outdoor recreation enthusiasts.
    As California and the United States become more populated, public 
lands set aside for outdoor recreation uses, will become increasingly 
more important. The density of many big cities is in the hundreds of 
people per acre, and along with stressful jobs, individuals need a way 
to ``get-away from it all''. Public lands offer an opportunity for 
families to reconnect, for individuals to ``recharge their batteries'', 
and a way for all to enjoy a wide variety of outdoor recreational 
experiences that are both healthy for the body and the soul.
Gateway Communities Need Public Lands
    Gateway communities in America, by their very nature, are close to 
public lands. This symbiotic relationship creates an arrangement where 
the public lands users need the community for services while the 
communities need the public lands as an attraction. As more and more 
communities are transitioning into more diverse economies that are less 
based on resource extraction, visitors to public lands will play an 
increasingly important role in local economies. In rural California, 
every $63,000 dollars spent by visitors creates one new job. Many of 
those using public lands are international visitors who often make 
their visit to America a visit to our magnificent public lands and 
other parts of rural America. Germans alone account for hundreds of 
thousands of visits to public lands annually. One public lands 
attraction in Northern California surveyed visitors during a specific 
month several years ago, and 11% of the visitors were German. 
Obviously, the money spent by these visitors is important to both the 
local economies and to our balance of trade. In light of the recent 
terrorist tragedy in America the tourism industry knows it will be 
severely impacted. Those of us in the west also know that public lands 
will be the magnet that draws both domestic travelers and 
internationals back to rural America.
Why Charge Fees on Forest Lands?
    Charging fees for the use of Forest Service lands is obviously a 
new concept. Several generations ago when the National Park Service 
began charging fees, there were certainly many complaints. The Park 
Service had the obvious advantage of some of our most spectacular 
attractions and the ability to put a gate in front of them. This 
advantage is not always available to the Forest Service. Although the 
Forest Service may not have as many well-known attractions as the Park 
Service, it does have a far greater number of acres dedicated to 
general outdoor recreation. Some of America's most spectacular trails 
and vistas are on Forest Service lands, as well as many of the most 
heavily used waterways and lakes in our country are again managed by 
the Forest Service.
    When discussing fees on the national forests, the inevitable 
question is ``why pay for something that should be covered by our 
taxes''? The problem is it has not been covered by our taxes. In a 
recent survey conducted by the Forest Service on maintenance backlogs, 
it was determined that $812 million dollars in unmet maintenance needs 
existed on Forest Service lands. This budgetary shortfall only likely 
to be exacerbated by the fiscal demands that the tragic events which 
occurred two weeks ago will place on our nation.
    In California, I believe we cannot appropriate money fast enough to 
mitigate the effect of an ever increasing population and its use of 
public lands. California currently has 35 million people and it is 
expected that this will increase to more than 50 million by the year 
2020. Appropriated funds should continue to provide most of the funding 
needed by the Forest Service. But, especially in heavily used 
recreation areas and at high use attractions, user fees make good 
sense. The primary reasons for fees in this area are:
    <bullet> LIncreased support for nationally designated areas Many of 
the nationally designated areas such as national recreation and scenic 
areas, monuments, national trails and historic sites have never 
received the funding necessary to mitigate the often heavy visitation 
at these locations. Charging fees at these sites certainly makes the 
greatest sense, as the user has a high perceived value of what they are 
receiving, as well as the obvious need to mitigate the impact of high 
usage. Charging fees at these locations also makes good sense as there 
are direct correlations between usage, need for mitigation, and fees 
collected.
    <bullet> LFees allow more timely responses to mitigation needs One 
of the major advantages of charging fees for a specific site or for 
heavily used disbursed areas, is the ability to solve problems and 
mitigate the impact of heavy usage in an immediate way. The 
appropriation process can often be lengthy and is usually not finely 
focused on the attraction needing funds for mitigating usage. In other 
words, funds collected for a specific site can usually hit the ground 
much faster than those coming from appropriated sources.
    <bullet> LLocal support for fees, when funds used locally There are 
numerous anecdotal reports that public lands users support fees when 
they know they are being used locally to provide improvements for the 
attractions they are using. On Shasta Lake, houseboat owners are 
charged an annual fee to have their boat on the lake. Recently when 
these houseboat fees were raised, the local boating club indicated they 
would not fight this fee increase because they knew the money collected 
would be staying at Shasta Lake and used to provide improvements from 
which they would benefit. In Southern California, a survey by the Los 
Angeles Times found that 62% of those surveyed indicated they approved 
of the Forest Service charging a user fee. Dr. Jerrell Richar of 
California State University, San Bernadino, conducted a user survey 
associated with the adventure pass program. Dr. Richar's survey 
indicated the vast majority of forest visitors support the program. 59% 
of survey respondents felt that they were better off with the adventure 
pass program, and its resulting improvements to the forest lands.
    <bullet> LFees provide matching funds for state grants An 
unanticipated benefit of collecting and retaining fees, has been the 
ability to use some of these fees for matching state program grants. In 
California there are several state grant programs that have been 
unavailable to the Forest Service in the past because of a lack of 
funds. These programs are under the California Department of Boating 
and Waterways, the California Off-Road Vehicle ``Green Sticker'' 
program and the California Department of Fish & Game. These state 
programs require a matching contribution and then these state grants 
provide for such important projects as boat ramps, handicapped access 
to attractions, and the development of trails and wildlife viewing 
areas.
    <bullet> LFees provide for unmet needs Experiences from my local 
forest, the Shasta-Trinity National Forest, provides several positive 
examples of the benefits of the fee demo program with some being 
unanticipated when the program was first established. The retention of 
fees on Shasta Lake has provided the opportunity to fund worthy 
projects that would normally have not received funding. One of the most 
important projects on Shasta Lake, that has been funded by the 
retention of special use fees, is the marking of obstacles. This has 
greatly enhanced the experience and the safety of boaters on Shasta 
Lake, as there is now less worry about hitting barely submerged land 
points. Another major project recently completed on Shasta Lake is the 
addition of a state of the art accessible boat-loading platform, which 
provides greater access to the lake for people of all abilities. Prior 
to the completion of this project, many individuals with limited 
mobility had an extremely difficult time accessing the boating 
experience.
What works and what doesn't
    The advantage of a demonstration program such as fee demo for the 
Forest Service is that it provides the opportunity to experiment with 
various fee collection programs. If one were to identify the biggest 
problem of demonstration programs, it would be the wider margin for 
errors a pilot program such as fee demo allows. Living inside a 
national recreation area has given me insight into the potential 
problems that a demonstration program can create.
    When the fee demo program was first announced in the area I live, 
the local ranger district indicated a general use fee would be 
collected from everyone inside the recreation area. Living on a private 
``in holding'' caused me to ask the question--would I have to buy a 
permit to live inside a national recreation area? At the time, before 
fee demo was implemented, the local reaction by the recreation staff 
was, ``No, not to live in the area, but, should you go off your 
property into the surrounding forest you would need a permit.'' 
Fortunately, clearer minds prevailed, and it became apparent that the 
only viable way to implement the fee demo program in the Shasta Lake 
National Recreation Area was through special use fee retention. There 
are several hundred private houseboat owners on Shasta Lake that pay an 
annual fee to be on the lake. Also, eleven marinas operate on Shasta 
Lake, offering more than 400 commercially available houseboats for 
rent. The special use fees paid by these marinas are now being utilized 
under the fee demo program. This program has worked extremely well 
because there is a finite number of potential payees into the fee demo 
program and collection approaches close to 100% compliance. Collection 
costs are just a very small percentage of the actual amount collected.
    Another problematic area for any fee program is how to deal with 
local users. Often these users consider the public lands their backyard 
and are reluctant to pay a day use fee when they are on these public 
lands frequently. Almost all fee programs have identified this 
potential use and have developed season passes at very nominal charges. 
As an example what may be a $5.00 daily fee usually translates into a 
$25.00 to $30.00 annual fee. Most locals, when they realize that the 
money is being used locally, and that it is very nominal fee, are okay 
with paying it.
    Another important factor to consider is the perceived value of a 
particular attraction, and the fee connected with it. It is important 
that the Forest Service continue to adjust fees related to what is 
being received. For example, very primitive campgrounds should require 
lower fees than more developed campgrounds. Another issue arises in 
disbursed recreation areas such as in Southern California, when there 
are public highways going through these areas and fees are required for 
just stopping to take a walk. In recent years, administrators of the 
adventure pass program in Southern California, have realized that it is 
important to remove vista points and certain scenic sections of state 
highways, from fee collection.
    The NAGC makes two specific recommendations regarding the future of 
the fee demo program, one pertaining to the collection of fees and the 
other to the expenditure of fee revenue.
    Regarding fee collection, the NAGC strongly urges that the Forest 
Service and other public land agencies with fee demo authority, to 
follow more consistent collection policies both within and between 
agencies. Public lands visitors are especially frustrated when they are 
required to pay different prices for similar services in the same 
national forest, or to be charged one fee by a national forest, another 
fee by an adjacent national park, another by an adjacent national 
recreation area and still another fee by another adjacent national 
forest. There absolutely must be scrupulous coordination and 
consistency within and between the land agencies.
    Regarding fee revenue expenditures, gateway communities are 
concerned over instances when this revenue has been used to expand, 
modernize or construct new facilities, such as campgrounds, that are in 
direct competition with existing nearby businesses. We urge that 
Congress make clear that fee demo revenue is to be used to maintain 
existing facilities and visitor services not to make them competitive 
with private sector businesses. In the example of campgrounds, fee demo 
should not be used to upgrade sites to accommodate large, modern 
recreation vehicles when those RVs can be readily served by private 
campgrounds.
Conclusion
    The fee demo program for the Forest Service has been a learning 
experience for both the agency and the users. Initially strong 
opposition led many to believe this program would never work. Through a 
strong educational program and focused marketing to show the value of a 
fee program, the implementation of tangible projects paid for by fees, 
and the ironing out of some of the initial collection problems, fee 
demo has now developed into a viable program. User fees are a way of 
collecting money from those that actually use the forests and it 
provides for additional mitigation of usage that is unavailable under 
the normal Congressional appropriations process.
    The National Alliance of Gateway Communities supports the fee demo 
program for the Forest Service because it serves gateway communities as 
well. Funds from fee demo are used to provide a better recreation 
experience on the public lands and provides the consumer with the 
understanding that there is product out there worth paying for. The 
fees have helped shrink a small portion of the backlog of maintenance 
while providing improved services and products, which enhance the 
visitor experience on Forest Service lands. While there is a need for 
improvement and refinement in the fee demo program in the Forest 
Service and in the other public land agencies, most notably in 
utilizing more consistent pricing and collection practices, and in 
avoiding expenditures that create facilities or services that compete 
directly with the private sector, we encourage Congress to continue 
this program while providing continued direction to the Forest Service 
and the other agencies to ensure that the program helps to achieve the 
goal we all seek, maintaining the national forests, parks and other 
public lands as the best, most visitor-friendly in the world.
                                 ______
                                 
    Mr. Peterson. I would like to thank the panel and the 
members today.
    Mr. DeFazio. Excuse me, Mr. Chairman. Could I insert a 
statement for the record?
    Mr. Peterson. Without objection.
    Mr. DeFazio. Thank you, Mr. Chairman.
    [The prepared statement of Mr. DeFazio follows:]

Statement of the Honorable Peter DeFazio, A Representative in Congress 
                        from the State of Oregon

    Mr. Chairman,
    As you know, the fee demonstration program began in 1996 as an 
appropriations rider and has now been extended three times, and amended 
or supplemented numerous times, through the appropriations process. The 
House version of the fiscal year 02 Interior Appropriations bill 
contains language that extends the Recreation Fee Demonstration program 
for another four years. I believe this usurpation of the legislative 
process is unacceptable and fee demonstration should be subject to 
congressional hearings and proper authorization. Chairman Hansen, prior 
to becoming Chairman of the House Resources Committee, assured me that 
the fee demonstration program-which is generally unpopular with the 
public-would not be extended beyond fiscal year 02 through an 
appropriations rider. Unfortunately, despite my efforts, it appears 
that the appropriations rider extension through fiscal year 06 is going 
forward. Though I am opposed to the stealth authorization of the fee 
demonstration program, I am also concerned with the lack of recreation 
opportunities it provides for many communities.
    The Recreation Fee Demonstration program imposes user fees on 
citizens who merely intend to hike, hunt, or drive and park along U.S. 
Forest Service (USFS) or Bureau of Land Management (BLM) roadways. Many 
formerly timber dependant communities in my district, and throughout 
the Northwest, have not recovered from the decline in timber revenue. 
Most of these communities are nearly surrounded by Forest Service or 
BLM land. The fee demonstration program is an unfair double-tax on 
these communities that have historically used their public land for 
recreation.
    The National Park Service (NPS) is one of the agencies covered by 
the fee demonstration program. However, the repeal of this tax would 
not prohibit the NPS from charging fees at national parks. In addition, 
it would not prohibit the USFS and BLM from charging to use improved 
campsites and maintained trails.
    Fee demonstration is currently opposed by over 230 outdoor 
recreation, environmental, and public interest organizations 
nationwide; as well as being formally opposed by the Oregon, California 
and New Hampshire state legislatures. Contrary to USFS claims, 
statistics show that the fee demonstration program is not popular with 
the public at large. Regional Forest Service staff have reported that 
just 30 percent of the public complies with the program. This 
percentage simply reflects compliance with the law. Based on the volume 
of correspondence I have received in opposition to the program, I 
believe the percentage of the public who actually support the fee 
demonstration program to be even less.
    The most fair and prudent way to proceed with the Recreation Fee 
Demonstration program is through the standard authorization process 
rather than continuing extensions through riders to Interior 
Appropriations bills.
                                 ______
                                 
    [Additional statements submitted for the record follow:]

Statement of the Honorable Elton Gallegly, a Representative in Congress 
                      from the State of California

    Mr. Chairman, I today urge this committee to not support making the 
Forest Service recreation fee demonstration program permanent. I was 
one of the members of Congress who supported the creation of the Forest 
Service recreation fee demonstration program. However, I did so with 
the assurance that the money collected from this fee would be used to 
reduce the maintenance backlog in our national forests. Unfortunately, 
it has been brought to my attention that a large percentage of the 
funds are not being used for forest maintenance, but are being used to 
fund the bureaucracy that operates and enforces the fees.
    Mr. Chairman, the Los Padres National Forest encompasses nearly 
half of my district. My constituents have lived around and recreated in 
this forest for years. While some are concerned about paying for an 
``Adventure Pass'' to use a forest they have recreated in freely for 
generations, many would accept the pass if it meant that the forest 
would be preserved and enhanced for their recreational needs.
    I believe every member of the Resources Committee would like to see 
that our national forests are properly maintained for our citizens. But 
I can not support a program that taxes my constituents beyond what they 
already pay to the federal government when the bulk of the tax pays for 
the taxing program, not forest maintenance.
    It is clear that our national forests are underfunded. We need to 
work with our colleagues in the Appropriations Committee to address 
funding shortfalls in the operation and maintenance of our national 
forests. If not, then we have to enhance the current program so that 
the funds collected are used for their intended purposes. I thank the 
Chairman and yield...
                                 ______
                                 

  Statement of Congressman C.L. ``Butch'' Otter, A Representative in 
                    Congress from the State of Idaho

    Thank you, Mr. Chairman for holding a hearing on such an important 
subject--measuring the impact of the recreational fee demonstration 
program authorized by Congress in 1996, and hearing testimony as to 
whether it should be permanently established.
    The Forest Service and the Bureau of Land Management manage an 
estimated 455 million acres of public lands that are visited by nearly 
one billion visitors each year. As a result, a staggering amount of 
federal funding is devoted each year to ensure that these recreational 
activities are available. I commend the partnership that has been 
established to maintain access of citizens to numerous sites managed by 
the Forest Service, Bureau of Land Management, Bureau of Reclamation, 
National Park Service and Idaho Department of Parks and Recreation--
called the ``Visit Idaho Playgrounds.''
    Mr. Chairman, I support the concept of a ``user pay'' system--those 
who use federal lands for recreation should contribute a portion of the 
cost to maintain them. However, I'm concerned that the huge amount of 
land acquired by the federal government over the last few years 
underscores the high costs of maintenance that accompanies such 
acquisitions. While I am interested in hearing testimony from those who 
want to extend the program, I am also interested in knowing from the 
federal agencies how they intend to address the huge maintenance 
backlogs they have amassed without substantially raising the fees or 
restricting access.
    I'm also concerned that the agency needs to correct the apparent 
double-standard of charging recreational fees for law-abiding citizens 
while also permitting free access to groups such as the ``Rainbow 
Family Coalition,'' such as occurred in the Boise National Forest in 
Idaho in July. Some 20,000 people from outside the area converged on 
the Boise National Forest without a legal permit and caused a 
significant amount of environmental and economic damage to public 
lands.
    I believe that we must be cautious with any proposal that imposes a 
permanent fee from the federal government, no matter how noble its 
intention. Congress funds these federal agencies every year, and I am 
hesitant to allow expanded authority without also maintaining our 
constitutional oversight authority.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Peterson. These are unusual times, and we apologize for 
how this worked. This is the first defense briefing by 
Secretary of Defense Rumsfeld and Secretary of State Powell for 
the general Members of Congress at 4 o'clock. We had no lead 
time; we just found out about it. So we apologize. Most Members 
feel obligated to hear that, and their constituents want them 
to be informed.
    Your full testimony will be in the record. Members will 
have the right to ask questions. They will be sent to you for 
response, and that will be made a part of the record.
    This would have been an interesting panel to hear 
discussion--it would have gone on for some time, I am sure--so 
I apologize, but I want to thank each of you for your 
participation on behalf of the Committee and the members.
    Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 4 o'clock p.m., the Subcommitee was 
adjourned.]

                                   - 

</pre></body></html>
